<html>
<title> - H.R. 1: STRENGTHENING ETHICS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
                      H.R. 1: STRENGTHENING ETHICS

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2019

                               __________

                           Serial No. 116-02

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
      
      


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov
                        
                        
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-793 PDF                WASHINGTON : 2019    
 
 
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 ELIJAH E. CUMMINGS, Maryland, Chairman

Carolyn B. Maloney, New York         Jim Jordan, Ohio, Ranking Minority 
Eleanor Holmes Norton, District of       Member
    Columbia                         Justin Amash, Michigan
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                      Krista Boyd, General Counsel
          Elisa LaNier, Chief Clerk and Director of Operations
               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                      
                      

                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 6, 2019.................................     1

                               Witnesses

Mr. Scott Amey, General Counsel, Project on Government Oversight
    Oral Statement...............................................     8
    Written Statement............................................    11
Mrs. Karen Hobert Flynn, President, Common Cause
    Oral Statement...............................................    37
    Written Statement............................................    39
Mr. Rudy Mehrbani, Spitzer Fellow and Senior Counsel, Brennan 
  Center for Justice
    Oral Statement...............................................    48
    Written Statement............................................    50
Mr. Walter Shaub, Jr., Senior Advisor, Citizens for 
  Responsibility and Ethics in Washington
    Oral Statement...............................................   125
    Written Statement............................................   127
Mr. Bradley A. Smith, Chairman, Institute for Free Speech
    Oral Statement...............................................   139
    Written Statement............................................   141

                            Index of Inserts

                                                                   Page
    Statement of the Indivisible Project.........................   233
    Statement for the Record In Support of H.R.1, the For the 
      People Act of 2019.........................................   235
    Letter from Don W. Fox.......................................   240


                      H.R. 1: STRENGTHENING ETHICS

                              ----------                              


                       Tuesday, February 6, 2019

                   House of Representatives
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 2154, Rayburn House Office Building, Hon. Elijah Cummings 
(chairman of the committee) presiding.
    Present: Representatives Cummings, Maloney, Norton, Clay, 
Lynch, Cooper, Connolly, Krishnamoorthi, Raskin, Rouda, Hill, 
Wasserman Schultz, Sarbanes, Welch, Speier, Kelly, DeSaulnier, 
Plaskett, Khanna, Ocasio-Cortez, Pressley, Tlaib, Jordan, 
Amash, Gosar, Massie, Meadows, Hice, Grothman, Comer, Cloud, 
Gibbs, Higgins, Norman, Roy, Miller, Green, and Armstrong.
    Chairman Cummings. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
at any time. I will now recognize myself for an opening 
Statement.
    Today, we are holding a hearing on H.R. 1, the For the 
People Act. H.R. 1, introduced by my distinguished colleague, 
Congressman John Sarbanes of Maryland, a senior member of our 
committee. We thank Congressman Sarbanes for his--not only for 
his vision, but for his tenacity, and for putting his blood, 
his sweat, his tears into this over several years. He has 
compiled one of the boldest reform packages to be considered in 
the history of this body.
    This sweeping legislation will cleanup corruption in 
government, fight secret money in politics, and make it easier 
for American citizens across this great country to vote. I 
believe that we should be doing everything in our power to make 
it easier for eligible American citizens to exercise their 
constitutional right to vote, not making it harder. We should 
be making it more convenient, not less. We should be 
encouraging more people to cast their votes, not fewer. We 
should be promoting early voting, absentee voting, voting by 
mail, and other ways to help citizens cast their ballots, not 
rolling back these very important programs.
    Unfortunately, some people disagree, including most 
Republicans. They think we should make it harder to vote. They 
think we should make it more difficult by cutting back on early 
voting, eliminating polling places, and taking other steps to 
reduce the number of people who do vote. Especially troubling, 
in some cases, they have engaged in illegal efforts to suppress 
the vote that target minority communities.
    For example, North Carolina drew legislative lines, and the 
4th District Circuit Court of Appeals found that regardingthe 
African Americans, and I quote, ``the lines were drawn with 
almost surgical precision,'' that is, to suppress the vote. 
Georgia kept eligible individuals off the rolls and caused 
widespread problems with wait times and absentee ballots, 
particularly in areas with significant minority populations.
    Kansas moved to the outskirts of town, the one and only 
polling place for 27,000 residents of Dodge City, most of whom 
were minorities. There's something wrong with that picture. 
H.R. 1 would address many of these problems. The bill would 
institute procedures to automatically register eligible voters 
and put in place protections to keep them on the correct voting 
rolls. It would provide for expanded early voting and absentee 
voting and give additional funding to States to maintain enough 
polling sites so everyone can easily cast their ballot.
    Senate majority leader Mitch McConnell, has described H.R. 
1 as, and I quote, ``a power grab by Democrats.'' He's right 
about one thing, it is a power grab, but it's not by Democrats, 
it is by American citizens who voted for reform in this last 
election, and sent the clear message that they want to exercise 
their constitutional right to vote without interference.
    Today, our hearing will focus on the part of H.R. 1 that is 
within our jurisdiction, Title VIII, which puts in place strong 
new reforms for the executive branch. For example, Title VIII 
includes a bill that I introduced, called the executive branch 
Ethics Reform Act. It would ban senior officials from 
accepting, quote, ``golden parachute,'' unquote, payments from 
private sector employers in exchange for their government 
service. This would have prevented Gary Cohn from receiving 
more than $100 million in accelerated payments from Goldman 
Sachs, while leading the Trump administration's efforts to 
slash corporate taxes.
    Title VIII also includes another bill I introduced, the 
Transition Team Ethics Improvement Act, with Senator Carper and 
Senator Warren. This legislation would require transition teams 
to have ethics plans in place, and make those plans publicly 
available. Title VIII also would prohibit senior Federal 
employees from working on matters that affect the financial 
interest of their former employers or prospective employers. 
They could obtain waivers for this requirement, but those 
waivers would have to be made public.
    Title VIII also would make clear that Congress expects the 
President to divest his business holdings, just as every single 
President since Jimmy Carter has done, and place them in an 
independent and truly blind trust. Both Democratic and 
Republican ethics experts warned President Trump to do this 
years ago, but he refused. They warned that every decision he 
made could be questioned. The American people would rightly 
wonder whether he was serving the Nation's interest, or his own 
financial interests. Unfortunately, that is exactly what has 
happened over the past two years.
    The American people gave this Congress and this committee a 
mandate to restore our democracy and cleanup our government. 
They want greater transparency. They want greater 
accountability in government. H.R. 1 makes good on that 
promise. It is a broad and brave step toward restoring a 
government that works for the people.
    Now, it gives me great honor to recognize the author of the 
bill for two minutes, Mr. Sarbanes.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I 
appreciate your having this hearing on H.R. 1. I also want to 
salute some of the new members on the dais here, because they 
came with this message of reform pinned to their chest as a 
class. Americans from across the political spectrum want a 
democracy that works for them, a democracy where big money 
doesn't dominate the political debate, where access to the 
ballot box is ensured for all citizens; and where public 
servants work for the public interest.
    Like any system, our republic requires regular maintenance, 
without it, the gears grind down, the operating systems fail, 
and the people's democratic will is ultimately compromised. 
This is what has happened to our democratic institutions over 
the past few decades. We have failed to beat back the new and 
inventive ways that big money has found to corrupt our 
politics. We have failed to modernize our election system, and 
we have failed to implement meaningful ethics rules.
    No wonder the public's faith in elected representatives is 
flagging, why confidence in our democratic institutions is near 
historic lows, and why cynicism is so high. H.R. 1, the For the 
People Act, is about giving Americans their republic back...by 
fighting back against big money and politics, ensuring all 
Americans can vote, and ending partisan gerrymandering, and 
enacting tough new anti-corruption measures.
    Today's hearing, Mr. Chairman, will be an opportunity to 
examine the imperative for, and the design of, anti-corruption 
measures that are included in H.R. 1. I very much look forward 
to that discussion.
    Mr. Chairman, H.R. 1 will give Americans their power back 
and our democracy: the power of the ballot box; the power of 
political voice; and the power of accountable representative 
democracy. Put plainly, these reforms are not partisan, they 
are patriotic. We can and must do better to work together to 
repair our democratic institutions. Many of the provisions in 
here actually incorporate bills that have had bipartisan 
support in years past.
    I hope my colleagues on the other side of the dais will 
join us in the effort to strengthen our democracy. Thank you 
Mr. Chairman, I yield back.
    Chairman Cummings. I yield to the distinguished member, Mr. 
Lynch, one minute.
    Mr. Lynch. Thank you very much, Mr. Chairman. My 
legislation that is incorporated in this bill, my bill, H.R. 
391, is the White House Ethics Transparency Act which would 
simply require the Trump administration and future 
administrations to automatically disclose ethics waivers that 
they have issued to executive branch officials. These waivers 
allow former lobbyists, industry attorneys and consultants, who 
previously worked for the private sector and present a 
significant conflict of interest with their positions in the 
executive branch, to, nevertheless, participate in matters in 
which their prior employers, or clients, have a stake. Pursuant 
to the bill, disclosures must be submitted to the independent 
Office of Government Ethics within 30 days and be publicly 
posted on the White House and OGE websites.
    Mr. Shaub is well-aware of this, one of our witnesses. 
Early on, we had--the White House just refused to say whether 
and when they had given waivers to the various lobbyists to go 
to work in his administration. So the inclusion of this section 
of the bill will prevent that from happening in the future.
    So, with that, I yield back and I thank you for the time.
    Chairman Cummings. I yield the final two minutes to Mr. 
Raskin of Maryland.
    Mr. Raskin. Mr. Chairman, thank you. With your leadership, 
with the robust new majority in the House of Representatives, 
it's a new day in Washington. A great Republican President, 
Abraham Lincoln, spoke of government of the people, by the 
people, and for the people, and that's always been the 
tantalizing dream of America. It is our role as Congress to 
guarantee that we are a government of the people.
    But today, the executive branch is drowning in big money 
corruption, self-dealing, and lawlessness. They said they were 
going to drain the swamp, Mr. Chairman. They moved into the 
swamp, they built a hotel on it, and started renting out rooms 
to foreign princes and kings and governments. It is our job to 
restore government by the people in America, which is why I'm 
thrilled to introduce the executive branch Comprehensive 
Enforcement Act with Senator Blumenthal on the Senate side. It 
will give subpoena power to the Office of Government Ethics. It 
will allow formal proceedings to take place there; it makes 
clear that it extends to all White House personnel, as well as 
the executive branch agencies; it authorizes the Office of 
Government Ethics to order corrective actions, like 
divestiture, blind trusts and recusal; and impose appropriate 
administrative penalties where members of the executive branch 
are trampling our laws.
    It protects the independence of the Office of Government 
Ethics by providing that the director can be removed only for 
cause. So it strengthens the independence of the Office of 
Government Ethics to make sure that we can ferret out the 
corruption, which is now pervasive throughout the executive 
branch of government in the Trump administration.
    I yield back to you, Mr. Chairman.
    Chairman Cummings. Thank you very much. I now yield to the 
distinguished gentleman from Ohio, the ranking member of our 
full committee, Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. I want to thank our 
witnesses as well for being here. Normally, when you start a 
new Congress, the majority gives the designation of H.R. 1 to 
its key priority. In the last Congress, the H.R. 1 was the most 
significant tax reform, tax cut package in a generation, 
returned millions of the dollars to Americans, simplified our 
Tax Code, and was one of the key reasons, I think, we've seen 5 
million new jobs added to our economy in the last couple of 
years. That bill, the Tax Cuts and Job Act, was bold, 
realistic, and it was signed into law just over a year ago.
    I think it has also helped create the lowest unemployment 
in 50 years, an economy that is moving in exactly the direction 
we want. This Congress, the Democrats' H.R. 1, is the so-called 
For the People Act. A more accurate title would be ``For the 
people who want Democrats to win elections from now on.'' The 
bill includes a laundry list of tired proposals designed to 
benefit the majority by tilting the playing field in their 
favor. It's not a stretch to label many of these proposals 
radical. You can laugh, but it's true.
    H.R. 1 would steer potentially billions of dollars to 
political allies in the name of campaign finance empowerment, 
restrict Americans' right to free speech, and exact political 
retribution on the President of the United States. 
Unfortunately, this isn't all that surprising. This is just the 
latest in a series of attacks by the Democrats to stifle the 
free exchange of ideas.
    In 2013, we learned that the IRS targeted conservatives for 
their political beliefs during the 2012 election cycle. 
Systematically, for a sustained period of time, they went after 
people for their conservative beliefs, plan in place, targeted 
people, they did it. The gross abuse of power would have 
continued if not for the efforts of this committee.
    In 2014, the Obama Administration doubled down and 
attempted to use the IRS rulemaking process to gut the ability 
of social welfare organizations to participate in public 
debate. Congress has so far prevented this regulation from 
going into effect, but H.R. 1 would change that.
    Furthermore, this bill would roll back another critical 
victory for privacy and free speech secured just last summer. 
Following efforts by this committee and others, the IRS changed 
its policy as it relates to Schedule B information. Schedule B 
contains personal information like names, addresses, and the 
amounts donated to nonprofit entities. Even though this 
information is supposed to remain private under current law, 
States and Federal Government have leaked these personal 
details in the past. In changing its policy, the IRS noted that 
there had been at least 14 breaches resulting in the 
unauthorized disclosure of Schedule B information just since 
2010. The result was everyday Americans receiving death 
threats, and mail containing white powder, all because--all 
because someone disagreed with what they believe, and who they 
gave their hard-earned money to.
    The reason that the protection of Schedule B information is 
important has nothing to do with the vast conspiracies on the 
right or the left, the so-called dark money issue; rather, it 
dates back to the Supreme Court's 1958 decision, critical 
decision, the NAACP v. Alabama, which formally recognized the 
freedom of association and prevented the NAACP from being 
compelled to turn over information about its members.
    Look, I haven't even gotten to all the other problems with 
this bill. I mean, this bill's mandatory early--I mean, talk 
about violation of the Tenth Amendment in our Federal systems. 
Mandatory early voting, mandatory voting by mail, felons can 
vote. How about public financing of campaigns? The taxpayers 
have to pay for the politicians' campaigns. Think about this, 
taxpayers have to pay for the same politicians who created the 
swamp, who are in the swamp, so that they can get reelected. 
This is what this legislation does.
    There's much that can be done to improve the functioning of 
transparency and effectiveness of the Federal Government. 
However, this 571-page bill reads more like a wish list for the 
Democratic Party than an honest attempt at reform. I fear that 
this legislation is a sign our friends in the majority want to 
play games, engage in political theater to start this Congress, 
rather than use this time to work constructively to find 
solutions for hardworking Americans that sent us here.
    Mr. Chairman, I would like to yield--I think we have a few 
more minutes left. I want to first yield to the gentleman, if I 
could, from Tennessee, Mr. Green, for two minutes.
    Mr. Green. Thank you, Mr. Chairman and ranking member. I am 
outraged out at House Resolution 1, which really should be 
called the Fill the Swamp Act. It seems every year that passes 
more and more power is shifted away from the people and into 
the hands of wealthy elites in Washington. These politicians 
and bureaucrats can't help themselves from micromanaging more 
and more of our everyday lives, from roads and bridges, 
firearms, relationships with our doctors, even our toilets. 
These, freedom-and federalism-hating politicians can't seem to 
help themselves.
    And now--now they want to decide how we can run our 
elections in Tennessee. You want to tell Tennessee to enact 
same-day voter registration with no time for verification? Do 
you want to tell Tennessee we can't require IDs to be shown at 
the polls, increasing the likelihood of voter fraud? You want 
to tell Tennessee that some unaccountable commission gets to 
draw our districts? You want to tell Tennessee it has to 
subsidize far left-leaning candidates in other States with our 
taxpayer dollars? How dare you. How dare you tell Tennessee 
what we can do with our elections.
    This bill is wrong. It is a power grab. Politicians--
politicians that want to give the Federal Government more 
power. Does the majority party care about voter fraud? Well, 
then, let's allow States to have voter identification laws. Do 
the Democrats suddenly care by foreign interference in our 
elections? Well, then, why are they on allowing illegal 
immigrants to vote? The hypocrisy is mind-boggling. The fact 
remains that there is no constitutional authority for the 
Federal Government to come down and seize control of elections 
in Tennessee.
    The Constitution creates a Federalist system with power 
dispersed amongst the people. I will fight to ensure it always 
does. I will keep my oath to uphold the Constitution and my 
promise to Tennesseeans to drain the swamp. Thank you, I yield 
back.
    Mr. Jordan. Mr. Chairman, I would like to recognize the 
gentleman from Texas for two minutes.
    Mr. Roy. Thank you to the distinguished ranking member. I'd 
like to co-sponsor the remarks from my friend from Tennessee. I 
wholeheartedly endorse all that he just said, as well as what 
Mr. Jordan just said.
    One question that I would be asking as we look into all of 
this is, why are we so divided? Why are we so divided as a 
Nation? I would suggest to you, in significant part, is because 
we try to govern from Washington 320, 330 million people with 
solutions here from the swamp in direct contradiction to the 
very republic our Founders gave us, looking ahead at knowing 
what it would look like if we tried to do that. We are a 
republic. We are a republic for a reason. We have a structure 
of government for a reason.
    That structure of government serves to preserve our 
inalienable God-given rights. That structure of government has 
served well to do those things. That structure of government 
recognizes the importance of States and the decisionmaking 
process across the vast majority of the issues we're supposed 
to deal with. When we take our eye off the ball of our core 
constitutional function, we don't do those functions well. We 
end up with a $1 trillion deficit this year piling on top of 
$22 trillion of national debt. And, yes, both parties are a 
part of that problem.
    We end up immersed in foreign wars that continue, as the 
President pointed out last night. We end up with spiraling 
healthcare costs because a President immersed us into 
healthcare from Washington instead of allowing the people in 
markets and States to function. And now we want to extend into 
every aspect of every issue of voting, issues that are supposed 
to be left to the States so that the people in the States can 
decide who they want to send to Washington, whether they are 
Senators, or whether they're in the Congress.
    We would undermine the very structure and the core of this 
government further if we pursue this path down H.R. 1. Thank 
you.
    Mr. Jordan. Mr. Chairman, for our remaining two minutes, I 
would like to recognize the gentleman from Georgia.
    Mr. Hice. I thank the ranking member. I join with my 
colleagues in just being extremely alarmed by H.R. 1. It is 
virtually 600 pages, and almost every page has issues of great 
concerns. Just one small part of that, the chairman mentioned a 
while ago, the automatic voter registration. It forces States 
to automatically register people, which may sound good on the 
surface, but what this will do is open the floodgates for 
fraudulent voting by illegal individuals in this country, and 
here is how. Here is what happens.
    These illegals who come into this country use government 
services and programs, and under H.R. 1, the information 
collected by these services and programs would automatically be 
transferred to election officials for registration. There's 
only one safeguard in H.R. 1, and that is, for the illegal 
alien to publicly declare that they are here illegally, and 
they are not eligible to vote. How can we really expect that to 
happen? It's not going to happen for them to draw attention to 
themselves, and identify themselves as being here illegally, 
and therefore, ineligible to vote.
    So simultaneously when an illegal alien fails to decline--
fails to recognize it, they are here illegally and they're 
ineligible to vote, despite the ineligibility, they cannot be 
prosecuted. So this bill is just going to make it extremely 
difficult to maintain accurate voting records. It's going to 
open the floodgate for fraud. So what we basically have here is 
a proposal that will lead to more illegal aliens registering to 
vote, making it virtually impossible to prosecute them for 
doing so, and making it difficult for States to clean up their 
voter lists. In the process, what that does to the American 
citizen, the voter, is it waters down the power of their vote 
by allowing illegals to do so. It makes those who are eligible, 
their vote, to have less impact. So I'm very concerned. I thank 
the gentleman, and I yield back.
    Mr. Jordan. Thank you, Mr. Chairman.
    Chairman Cummings. Thank you. I want to thank all of our 
members for your Statements. Now, all members will have 10 
legislative days in which to submit opening Statements for the 
record.
    Ladies and gentlemen, today we welcome five distinguished 
witnesses to our committee: Mr. Walter Staub is the former 
director of the Office of Government Ethics, and now serves as 
a senior advisor for Citizens for Responsibility and Ethics in 
Washington.
    Ms. Karen Hobert Flynn is the president of Common Cause, a 
nonpartisan grassroots organization dedicated to upholding the 
core values of American democracy.
    Mr. Rudy Mehrbani is the former director of the Office of 
Presidential Personnel, and now serves as a senior counsel at 
the Brennan Center for Justice.
    Mr. Scott Amey is the general counsel for the Project on 
Government Oversight.
    Finally, Mr. Bradley Smith, is the chairman of the 
Institute for Free Speech.
    Pursuant to committee rules, all witnesses who appear 
before our committee must do so under oath. I now ask each of 
you to stand and raise your right hand to take the oath.
    Do you solemnly swear that the testimony you're about to 
give will be the truth, the whole truth, and nothing but the 
truth, so help you God? Everybody has now answered yes, and let 
the record reflect that.
    I will now recognize each witness to present their 
testimony. I want to remind the witnesses that we have your 
written testimony before us, so you don't have to read it all, 
we have it. And I ask you to do me a favor, since we have five 
witnesses and we have a lot of members wanting to ask 
questions, that you obey the lights. You'll get a warning 
light, and then when it says red, I would appreciate it if you 
would let us--that you would stop and let us move on to the 
next witness.
    So we're going with Mr. Staub first--Mr. Amey.

STATEMENT OF SCOTT AMEY, GENERAL COUNSEL, PROJECT ON GOVERNMENT 
                           OVERSIGHT

    Mr. Amey. Thank you. I want to thank Chairman Cummings, 
Ranking Member Jordan, and the committee for asking the Project 
on Government Oversight, POGO, to testify about executive 
branch ethics.
    I am Scott Amey, POGO's general counsel. POGO is a 
nonpartisan, independent watchdog that investigates and exposes 
waste, corruption, and abuse of power. H.R. 1, which POGO 
supports, is an opportunity to make a good--make good on the 
bipartisan work that this committee has performed and to reform 
the ethics system to meet old and emerging challenges.
    We support stronger laws to slow the revolving door, 
improve the Office of Government Ethics, expand ethics 
restrictions to senior level officials. Title VIII and H.R. 1 
is a step forward in improving consistency in enforcement, but 
more importantly, to reduce improper influence over government 
decisions, missions, programs, and spending that are often 
contrary to the public's interest.
    Groups at this table have assembled for over a decade to 
correct problems creating by the revolving door in cozy 
relationships that result in an unlevel playing field. POGO 
published reports on the revolving door in 2004, 2005, and one 
just last year. The 2018 report showed that lobbying was the 
occupation of choice when officials left government service. A 
job that relies less on management skills and more on your 
connections back inside of the government.
    Despite the focus on the revolving door coming and going 
from the Department of Defense, the problems exist 
governmentwide, and concerns exist about having a personal or 
private interest, being lenient toward or favoring past or 
future employers, and gaining an unfair competitive advantage, 
all of which are the detriment to the public.
    H.R. 1 would close the gaps in ethics and conflict-of-
interest standards, especially the provisions in Title VIII. 
POGO particularly supports the provisions in Title VIII related 
to making the Office of Government Ethics more independent, 
slowing program and procurement officials from heading to 
companies they worked with or oversaw while in government 
service, codifying the Presidential ethics pledges that have 
come out since 1993, prohibiting a bonus for accepting a 
government position. This really came to light during the Obama 
Administration when Wall Street executives revolved into 
government, expanding cooling off periods when coming and 
leaving the government, and increasing transparency. With the 
limited time, I will briefly highlight the top three.
    First, the Office of Government Ethics should become an 
independent agency with new authorities to ensure consistent 
enforcement of ethics laws governmentwide. H.R. 1 would provide 
the OGE director, when appropriate, approval over resolutions, 
and any recusals, exemptions, or waivers from ethics rules; 
increase transparency; give OGE improved investigative power; 
and grant OGE the authority to issue administrative and legal 
remedies when the ethics violation is found.
    We support the provisions to add for-cause removal for the 
OGE director. For-cause removal will preserve the agency's 
independence, and help with continuity after turnovers in 
between administrations. We have heard stories of pressure 
coming from the top on the Office of Government Ethics, as well 
as agency ethics officials, and that must end.
    Second, amending the Procurement Integrity Act is 
essential. We need to strike the provision in the law allowing 
former program and procurement officials to work for companies 
they contracted with or oversaw, so long as they go to a 
different part of the company. We can't risk allowing officials 
to leverage their relationship with the company for future 
employment, calling into question the decisions that they made 
while they were in government. Additionally, those officials 
should not be allowed to access their former colleagues, which 
can create an unfair competitive advantage.
    Darleen Druyun, a senior Air Force acquisition official, 
left government and took a position with Boeing's missile 
division. Prior to leaving government service, she played a 
role in the award of a $20 billion contract to Boeing for 
refueling tankers. In her plea agreement, she Stated that she 
agreed to a higher price, even though she believed it was not 
appropriate, as a parting gift to Boeing. Her cozy relationship 
also included helping her daughter keep a job with the Boeing 
company. The existing laws allowed Darleen Druyun to accept a 
job with Boeing. Druyun eventually pled guilty to a separate 
ethics violation and served nine months in prison. These 
violations were not exposed by ethics officials or IGs. It was 
Senator McCain who found them while investigating the tanker 
deal, and he became concerned with the blatant revolving door 
concerns.
    Third, H.R. 1 will codify the ethics pledge process that 
has been ordered by Presidents since 1993. POGO supports making 
the pledge law, because otherwise, ethics orders only exist at 
the whim of each President. Making the pledge law would add 
continuity within the ethics community and prevent the pledge 
from being revoked on the President's last day in office, as 
was the case with President Clinton.
    In 1965, President Lyndon B. Johnson issued an executive 
order, stating in part, ``Every citizen is entitled to complete 
confidence in the integrity of his or her government.'' 
President Johnson's order is a foundation for our ethics system 
today. Our support for Title VIII of H.R. 1 and the 
improvements that I have detailed for you today are both 
realistic and necessary to prevent conflicts of interest.
    H.R. 1 is a step forward in reducing improper influence 
over our government and the bad deals that harm the public.
    Thank you for inviting me to testify today. I look forward 
to answering the questions from the members of the committee 
and working with the entire committee to further explore how 
Federal ethics and conflict of interest systems can be 
improved. Thank you.

    [Prepared Statement of Mr. Amey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Cummings. Thank you very much.
    Ms. Hobert Flynn.

    STATEMENT OF KAREN HOBERT FLYNN, PRESIDENT, COMMON CAUSE

    Mrs. Hobert Flynn. Thank you, Chairman Cummings, Ranking 
Member Jordan, and members of the committee, for holding this 
critically important hearing. I'd also like to thank 
Congressman Sarbanes for his leadership championing the For the 
People Act as the type of bold, innovative package of solutions 
that can restore people's trust in our government. One final 
note of thanks to House Speaker Pelosi for her commitment for 
making this her first order of business in the new Congress.
    My name is Karen Hobert Flynn, and I'm president of Common 
Cause, a national nonpartisan watchdog organization with 1.2 
million supporters. For nearly 50 years, we have been working 
to strengthen the people's voice in their democracy. I'm here 
to testify in support of For the People Act.
    First, I want to say that Americans have not been waiting 
for Washington to fix what ails them in our democracy. We have 
been working at the State and local level with many other 
groups to pass significant pro-democracy reforms. This is the 
second consecutive election cycle where voters have passed 95 
percent of the democracy reforms on the ballot.
    In 2018, voters in 20 red, blue, and purple States and 
localities have passed democracy reforms with strong support 
from Republicans, Independent, and Democratic voters. This 
includes voting rights restoration in Florida, same-day voter 
registration in Maryland. It includes independent redistricting 
commissions in Colorado, Michigan, and redistricting reform in 
Utah, automatic voter registration in Nevada and Michigan, and 
independent ethics commission in New Mexico, and an anti-
corruption package in Missouri.
    I should note that also these kinds of reforms and many 
embodied in H.R. 1, campaign finance disclosure, ethics 
reforms, and others, also passed with bipartisan support in 
State legislatures. The reforms embodied in H.R. 1 are not 
lofty and tested ideas; most are pragmatic solutions that are 
already working in a city or State somewhere in this country. 
These solutions are proven to work, and, in many cases, save 
taxpayers money.
    The timing of this legislation has never been more 
important as Americans grow more frustrated and cynical about 
our State of politics. While every Presidential administration, 
in our Nation's history, has had various ethical challenges, we 
have never seen so many corruption scandals and appalling lack 
of concern for the ethic rules that should govern our executive 
branch than with this administration.
    We have a series of reports that detail dozens and dozens 
of ethical challenges and conflicts of interest that have 
plagued this administration in the last two years. The American 
people want transparency, honesty, and accountability from its 
elected representatives. They do not want their elected leaders 
to use their public office for private gain to enrich their 
businesses, their wealthy donors, their family, or themselves.
    We believe tough ethics laws like the ones that we're 
talking about here today with the strength in Office of 
Government Ethics that has independent oversight and 
investigative and enforcement tools can help us prevent the 
incessant assault on our democratic values and institutions to 
self-government.
    My written testimony outlines our support for all the 
measures before the committee today, and I'll just add two more 
comments. One is, I agree with Chairman Cummings that on 
Election Day, we should make Election Day a holiday. We have 
found, as we do election protection, nonpartisan election 
protection across the country, that with aging infrastructure 
and machines--machines malfunctioning, and a lack of polls--
poll workers, that people have long lines up to 4 hours. Many 
working Americans can't afford to take 4 hours off of their day 
in order to vote. So making it a holiday would make a huge 
difference.
    In addition, we strongly support the conflicts from 
Political Fundraising Act, because Americans deserve to know 
whether people nominated to serve in the executive branch have 
raised money, or benefited from special interest money from the 
industries they are supposed to regulate. There are currently 
no requirements for Presidential appointees to disclose whether 
they have solicited funds or contributed funds for political 
purposes to PACs, super-PACs, 501(c)(4)'s, or 501(c)(6) 
business associations, and it's a significant gap that we think 
should be closed.
    We don't work on these issues just to look good, we pass 
reforms so that the government can be more responsive to the 
needs of everyday Americans. You will hear some who benefit 
from the current system, use tired arguments that defend the 
current system saying it works fine. The American people do not 
believe that our current system is just fine.
    You will also hear people talking about the First Amendment 
to justify billionaires, corporations, and special interest 
spending millions of dollars in politics, while our children, 
our families, and schools and communities, and our environment 
all suffer. Polls show that people want bold ethics and 
transparency reforms, and they want to clean up our system and 
give people more voice in our democracy.
    We look forward to working with this committee. We believe 
that this is a strong package. There are always elements that 
can be strengthened. We look forward to the questions ahead. 
Thank you.
    [Prepared Statement of Mrs. Hobert Flynn follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Chairman Cummings. Thank you very much.
    Mr. Mehrbani.

STATEMENT OF RUDY MEHRBANI, SPITZER FELLOW AND SENIOR COUNSEL, 
                   BRENNAN CENTER FOR JUSTICE

    Mr. Mehrbani. I would like thank Chairman Cummings, Ranking 
Member Jordan, and the entire committee, for the opportunity to 
testify today in support of House Resolution 1, the For the 
People Act. The Brennan Center enthusiastically supports H.R. 
1, it would be historic legislation. It addresses longstanding 
problems with our system of self-government, long lines, vast 
sums of money of dark money, harmful rules and practices that 
make it harder for many, especially voters of color, to cast 
their ballot, the ongoing challenges of gerrymandering, 
inadequate election administration, and at-risk technology. It 
addresses these issues with groundbreaking reforms that are 
proven to work. Automatic voter registration, small donor 
matching, the Voter Rights Act, redistricting commissions, 
early voting, election security and more.
    It is thus fitting that this bill is the very first 
introduced in this Congress. Today, I will focus on Title VIII 
of the Act, ethics reform for the President, Vice President, 
and Federal officers and employees. The reforms respond to the 
erosion of ethical guardrails in government that we have seen 
over a number of years. They are a strong first step to 
restoring public faith in accountable and ethical government.
    We have long assumed that all Presidential administrations 
would follow longstanding ethics practices and ideals that 
aren't required by law. For example, following precedent 
established by their predecessors over the last 40-odd years to 
publicly release their tax returns; voluntarily comply with 
conflicts of interest law that apply to other executive branch 
employees by divesting from potentially conflicting assets, or 
keeping their assets in a qualified blind trust; strive to 
avoid the appearance of improper or undue influence of outside 
interests in the way their administration has formulated 
official policy, or strive to fully enforce existing ethics 
laws.
    Unfortunately, these commonsense practices that Presidents 
from both parties followed for decades can no longer be taken 
for granted. This means that new laws are needed to compel a 
commitment to ethics and ensure accountability. As I detail in 
my written testimony, when President's and agency heads do not 
lead on ethics issues, they can result in serious ethical 
lapses: the improper use of government positions; running afoul 
of other laws like appropriations laws; and violations of 
revolving-door prohibitions. This results in an incredible 
waste of taxpayer resources, and it seriously harms public 
trust and faith in government. From my experience in 
government, Presidential leadership on ethics issues filters 
down throughout an administration. When I ran the Presidential 
Personnel Office, we followed certain practices, not just 
because of my office's commitment, but because President Obama 
demanded that we have an ethical personnel process. That meant 
that we worked collaboratively with the Office of Government 
Ethics, and strengthened post-employment lobbying restrictions, 
even if that wasn't technically required by law.
    Some have said that more robust ethics rules would deter 
talented individuals from serving in government. But many of 
the reforms in H.R. 1 have long been voluntarily followed by 
administrations. Some administrations, like the one that I 
served in, went further and supplemented those rules. What was 
the result? A historic number of Americans expressing interest 
to serve in an administration; arguably, the most diverse 
administration in history, and appointees who, on average, 
served in their positions substantially longer than their 
predecessors. Strong ethics laws, in short, help recruitment.
    The recent poll showed only a third of Americans trust 
government to do what is right, a decline of 14 percent from 
2017. More than three-quarters of voters ranked corruption in 
government as a top issue in the 2018 election. With almost a 
third calling it the most important issue. At the same time, we 
know Americans are yearning for solutions to these problems, 
and real action on those solutions.
    This Congress was elected with the highest voter turn-out 
in a midterm since 1914. Many of you were elected with a pledge 
to reform democracy. And in States across the country, major 
ballot measures were passed by large bipartisan margins to 
implement bold and creative reform. Voters spoke clearly. The 
best way to respond to a tax on democracy is to strengthen it, 
which is exactly what H.R. 1 does. We urge to you to pass it.
    Thank you, and I look forward to answering your questions.
    [Prepared Statement of Mr. Mehrbani follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
   
    Chairman Cummings. Mr. Shaub.

STATEMENT OF WALTER M. SHAUB, JR., SENIOR ADVISOR, CITIZENS FOR 
            RESPONSIBILITY AND ETHICS IN WASHINGTON

    Mr. Shaub. Chairman Cummings, Ranking Member Jordan, and 
members of the committee, thank you for inviting me to talk 
about the ethics reforms in H.R. 1. I served in the Office of 
Government Ethics as director, and before that, as a career 
ethics official. In my 14 years there, I have been intimately 
involved in protecting the principle that public service is a 
public trust.
    Based on this experience, I know how urgently we need 
reform, and that's why I support H.R. 1. The executive branch 
ethics program focuses on prevention. OGE has no real 
enforcement authority. In theory, OGE can order officials to 
cease ongoing violations, but statutory limitations prevent an 
effective use of this authority. OGE can ask agencies to 
conduct investigations and can request copies of records, but 
it has no power to do anything if they ignore these requests.
    Lacking enforcement tools, OGE relies on the director's 
ability to persuade or shame officials into doing the right 
thing. This was never ideal, but it worked fairly well for four 
decades. During my time in government, Presidents Bush and 
Obama were reliable supporters of OGE. They showed that 
government ethics is not a partisan issue.
    We now find ourselves in an ethics crisis. The trigger was 
President Trump's refusal to divest his conflicting financial 
interests. This radical departure from ethical norms leaves the 
public with no way of knowing how personal interests are 
affecting public policy. What we do know only raises questions.
    For example, questions surround President Trump's response 
when individuals associated with the Saudi Government murdered 
a Washington Post journalist, a resident of my home State. We 
can only wonder if President Trump's financial interests 
influenced the handling of sanctions on certain Russian 
businesses. Did they affect his decision to help Chinese 
telecom giant ZTE? Why did the administration scrap the plan to 
move FBI's headquarters? Was it because President Trump didn't 
want a competitor moving in so close to his D.C. hotel? These 
are just a few examples.
    And the President's disinterest in ethics has infected his 
appointees. The heads of six agencies have stepped down under a 
cloud of ethics issues. At least seven other appointees 
resigned under the taint of an investigation, ethics issues, or 
security clearance concerns. The Office of Special Counsel has 
found that nine of his appointees violated the Hatch Act, and 
there are dozens of pending ethics-related investigations.
    H.R. 1 kicks off what I hope will be a wave of reform. It 
focuses not just on the current crisis, but also issues that 
predate this administration. For example, H.R. 1 addresses big 
payouts to incoming officials. These golden parachutes raise 
concerns about an employee appointee's loyalty to a former 
employer.
    When former Treasury Secretary Jack Lew left Wall Street to 
join the State Department, he received a large bonus. His 
employment agreement let him keep that bonus specifically 
because he landed a high-level government job. I'm glad to see 
a provision in H.R. 1 addressing this issue, and my written 
testimony offers a suggestion for strengthening it further.
    H.R. 1 would also make OGE more independent. Like the heads 
of MSPB and OSC, OGE's director would be allowed to communicate 
directly with Congress and would be removable only for cause. 
Rather than depending on other agencies, OGE would be able to 
conduct meaningful inquiries by issuing subpoenas. H.R. 1 would 
increase the transparency of waivers which can undermine the 
ethics program if granted improperly. The public needs to know 
about waivers.
    Before leaving OGE, I exposed questionable practices 
involving the issuance of undated, unsigned, and retroactive 
waivers, some of which seemed designed to paper over ethics 
violations.
    I'll close by emphasizing that what's at stake is the very 
integrity of government. The Supreme Court has warned one that 
a conflict of interest is an evil that endangers the very 
fabric of a democratic society. The Court explained that 
democracy is effective only if people have faith in those who 
govern. We need ethics reform before the public's trust in 
government is shattered beyond repair. I urge you to pass H.R. 
1.
    Thank you again for inviting me, and I'm happy to answer 
any questions the committee may have today.
    [Prepared Statement of Mr. Shaub follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Chairman Cummings. Mr. Smith.

  STATEMENT OF BRADLEY A. SMITH, CHAIRMAN, INSTITUTE FOR FREE 
                             SPEECH

    Mr. Smith. Thank you, Chairman Cummings, Mr. Jordan, and 
members of the committee. The Institute for Free Speech has 
been producing detailed analyses of the many sections of this, 
the chairman called it a sweeping bill, 570 pages, some of 
those are available here today.
    I'm going to focus very briefly on two aspects of this 
bill, with which I have particular expertise as former chairman 
of the Federal Election Commission, and as the author of the 
leading academic analysis of super-PAC and coordinated 
spending, and the author of many of the FEC's current 
coordination rules.
    Since its inception, the Federal Election Commission has 
been a bipartisan agency. This is at the insistence of people 
such as Democratic Representative Wayne Hayes and Democratic 
Senator Alan Cranston, who warned, we must not allow the FEC to 
become a tool for harassment by future imperial Presidents who 
may seek to repeat the abuses of Watergate.
    Subtitle A of Title VI of H.R. 1 would replace the six-
member bipartisan FEC, with a five-member panel subject to 
partisan control. In theory, only two members could come from 
any one party requiring a fifth seat to be held by an 
Independent, but this is a fig leaf. In fact, the FEC has an 
Independent now, but it's understood that Commissioner Stephen 
Walther was appointed at the behest of former Democratic Senate 
Leader Harry Reid, who Mr. Walther had represented in election 
matters. And it's understood that he holds a Democratic seat.
    Under H.R. 1, Senator Bernie Sanders, for example, a front-
runner for the Democratic Presidential nomination in 2020, 
could be appointed as a, quote, ``Independent.'' Any President 
could find a nominal Independent to reflect his party's views 
creating a partisan majority on the Commission. Further, H.R. 1 
gives vast new powers to FEC chairman, justifying fully the 
title of Speech Czar. The chair would be the sole power to 
determine the agency budget, to subpoena witnesses, to compel 
testimony and reports, and to appoint the staff director, who 
oversees, among other things, the FEC's audit division.
    This is a prescription for partisan control and abuse. I 
assume the majority knows that, and that is why this provision 
of the bill, unlike the others, does not take effect until 
2021. The majority has no intention of allowing President Trump 
to appoint all five commissioners, including the powerful 
chair.
    Now, the claim was made that a partisan-controlled 
commission is necessary to restore integrity to election 
enforcement. This has it exactly backward. The only reason that 
the FEC has any credibility is its bipartisan makeup. Under 
Title VI, the person elected in 2020 will appoint all five 
members of the commission, including the powerful chair, which 
will have the power to write and then rewrite new rules with an 
eye toward the 2022 midterms, the 2024 and 2028 Presidential 
elections.
    Now, some of you may consider this a feature rather than a 
bug, but be careful what you wish for, you didn't think Trump 
would win in 2016 either. Subtitle B of Title VI is called 
Stopping Super-PAC Candidate Coordination. The sponsors and 
drafters are either being intentionally disingenuous here, or 
they simply do not understand what has been put in their own 
legislation.
    Nothing in Subtitle B, nothing limits its reach to super-
PACs, it applies to every union, trade association, advocacy 
group, and unincorporated association in the country. It 
applies to Planned Parenthood and Right to Life, to the NAACP 
and the ACLU, to the National Federation of Independent 
Business, and to the Brady Campaign for Gun Safety. It even 
applies to individual citizens who seek to participate in 
public discussion.
    Nothing--this cannot be said often enough--limits it to 
super-PACs. Through the interplay of its definitions of 
coordination and coordinated spenders, the law's treatment--
traditional treatment of coordinating spending as a 
contribution to a candidate and current contribution limits in 
the law, Subtitle B will actually have the effect of banning, 
not limiting, but actually banning a great deal of speech that 
was legal even before the Supreme Court's decisions in Citizens 
United v. FEC and Buckley v. Valeo.
    So, again, this law goes backward to outlaw speech that was 
always legal in American history even before the Citizens 
United decision. As the full text of my prepared remarks 
explains in greater details these problems of Title VI, but in 
a nutshell, Title VI should be called the Alien--the New Alien 
and Sedition Act.
    With just a few seconds remaining, let me add only on Title 
VIII, this seems to be one of the least harmful provisions of 
the bill, but that is not to say that it is not like some of 
the other provisions, a bit of overkill. It's interesting to me 
that it does not include, as covered individuals, people who 
have previously lobbied for cities and counties and local 
government units, and it would normally be the case that those 
groups lobby extensively in Congress, and perhaps should be 
also checked for conflict of interest.
    I also question the assumption of the bill, which seems to 
be that anybody with a past experience in the private sector is 
somehow dangerous and should have a legal conflict of interest 
defined by law before they even take office. I think that's 
overkill and inappropriate.
    Thank you very much for your time. I'm free to answer any 
questions.
    [Prepared Statement of Mr. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Cummings. Thank you very much to all of our 
witnesses, and thank you for staying within the time limit. I 
will now yield five minutes to the distinguished lady from 
Michigan, Ms. Tlaib.
    Ms. Tlaib. Thank you so much, Chairman, and thank you so 
much to Chairman Sarbanes for his incredible leadership on this 
issue. I think For the People, H.R. 1, is important in trying 
to restore public trust and to this institution. I know I'm a 
freshman, I'm new, I think a lot of people know that I really 
truly believe in the rule of law and believe in trying to 
restore to the core center of getting people to understand this 
body here works for them.
    So as a new Member, you know, I see now why a lot of my 
residents are really taken aback by this process and not 
feeling like it belongs to them. Through the chair, we all know 
this is a very critical issue. I think both Republicans and 
Democrats alike see this as a critical issue in taking 
corruption out of government. So for me, as you said about 
strengthening this, but more importantly, you know, in the 
first two years in office, I think the President made 281 
visits to properties he still profits from.
    More than 150 political committees, including campaigns and 
party committees have spent nearly $5 million at Trump 
businesses since he became President. At least 13 special 
interest groups have lobbied the White House around the same 
time they also did business with the Trump organization.
    I can go on, I can submit this to record, but as a person 
that's coming here as a brand new Member, I cannot believe this 
is not illegal already. That this is not something that we push 
up against, and say, Enough. Because as we step into here, we 
work for the people. We have to check our businesses, we have 
to check our personal and professional conflicts. Any lawyer 
across this country will tell you, it is dangerous to allow any 
sort of conflict to exist while you're trying to serve others, 
especially in a public position like this.
    I have seen modern Presidents, both parties, before this 
President, address these potential conflict of interests by 
adhering to all ethical norms and traditions that resulted in 
the sale of their financial interest, completely divesting in 
their foreign and domestic investments. I'm really taken aback 
by the fact that we still have to currently now fight for 
something that is so critically important in restoring public 
trust. That now we're setting a precedent that it's okay for a 
President not to divest. That it's okay that I have--Gary Cohn, 
President Trump's Director of National Economic Council, 
received more than $100 million like payments from Goldman 
Sachs before he came in to work for Trump--for the President, 
I'm sorry, Chairman.
    So one of the things that I'm taken aback by is like, you 
know, we're talking in the good--my good colleague from Ohio 
mentioned the original H.R. 1 tax break. Who works on that? 
Because back home in the district, they call that a payout. 
They really do. They know who was behind the scenes running 
that and pushing that forward.
    So my question to you is, how can we move because this 
should-have, could-have, maybe, and all these kind--to me that 
doesn't go far enough to starting to make people feel like this 
is their House, that this Congress belongs to them. Because 
right now all they see is people that are at the top that make 
millions of dollars that are completely disconnected with the 
American people. And I can tell you, every single day from 
underemployment to poverty in my district, we're feeling like 
here we don't have a voice.
    So with that, Mr. Shaub, I really would love to hear, how 
do you think we can really strengthen this, and where the 
dangerous precedent is, because more and more, we're now seeing 
other people interested, former CEOs, others, interested in 
becoming President of the United States.
    Mr. Shaub. You know, I applaud the bill for including a 
Statement of Congress that the President should divest. I think 
that takes a step toward reestablishing the norm, and it would 
have been helpful to me as director of OGE to be able to point 
to that. I personally would like to see it go further and 
require divestiture, because we have a situation now where 
people who seek to influence the government can funnel bags of 
cash to the President through his various properties.
    You have government contractors, charities, businesses, 
associations, politicians, political parties, political groups, 
using his facilities and paying just absolutely gobs of cash 
for the privilege of hobnobbing with the President. 
Unfortunately, the President has done nothing to discourage 
this. He didn't even try to mitigate it by saying, I and my 
appointees will refuse to attend events at my properties, to 
discourage people from holding them there because they would 
lose access to the government by having the event there. 
Instead, there seems to be this embrace and this encouragement, 
and the sense on the part of interested parties that they have 
to engage in this to even be on an even footing with their 
competitors.
    Mr. Meadows. Mr. Chairman.
    Ms. Tlaib. Can I reclaim my time?
    Chairman Cummings. The gentlelady has about 5 seconds, but 
go ahead.
    Ms. Tlaib. Oh, I just want--the constituent you spoke 
about, do you know in 2017, for example, Saudi lobbyists spent 
$217,000 to reserve rooms at Trump-owned hotels. And that, to 
me, makes you pause about your constituent being killed by that 
government.
    Mr. Shaub. I do know that, yes.
    Chairman Cummings. Thank you.
    Mr. Meadows. Mr. Chairman, I would just point out to the 
chairman, the witness may want to clarify his remarks when he's 
saying ``gobs of cash.'' I don't know that he would have any 
proof, and since he's under oath, I don't know that he would 
want to make that type of Statement.
    Chairman Cummings. Well, I will allow the gentleman, if you 
want to clarify what you meant by ``gobs of cash.''
    Mr. Shaub. Representative Meadows, what I mean is that 
people are paying money to the Trump organization to use his 
facilities, and the direct beneficiary of that money is 
President Trump, because he's the beneficiary of the trust that 
holds that. So the money is flowing to President Trump, and the 
steps he's taken to step back from it have had absolutely zero 
effect in any way to diminish the financial interest in the 
money that comes through. So I do, indeed, mean that this is a 
funnel for money, but----
    Mr. Meadows. You didn't mean cash?
    Mr. Shaub. Yes, I don't mean they are handing it directly 
to him.
    Chairman Cummings. The gentleman has defined it, thank you.
    Chairman Cummings. We will now hear from Mr. Gosar for five 
minutes.
    Mr. Gosar. Thank you very much, Mr. Chairman.
    I must have been living in the twilight zone for the first 
six years of my first eight years. Fast and Furious, Operation 
Choke Point, Benghazi, IRS targeting, the intimidation of the 
press with James Rosen and Sharyl Attkisson, Uranium 1, the 
unmasking of American citizens, and out-of-control DOJ. Really? 
Really?
    Mr. Smith, I'm going to concentrate with you. H.R. 1 
expands the definition of foreign national. Do you think, 
however, that it would make sense to strengthen the disclosure 
requirements in order to prevent foreign nationals from 
potentially funneling hundreds of millions of dollars to the 
U.S. campaigns?
    Mr. Smith. Well, the difficult question is always how 
exactly does one intend to do this. And one of the things that 
you have to keep in mind is that most regulations that would be 
imposed will be felt by American citizens. The vast majority of 
people who have to comply will be American citizens. So, when 
we engage in this type of thinking, we need to be, you know, 
careful that we're not giving up our own rights. You know, we 
fought the cold war without surrendering our own rights, and 
now the fact that, you know, we're afraid of, you know, the 
rump State of the former Soviet Union is going to somehow 
destroy America and so now we should rush to throw away hard-
won protections--I think Mr. Jordan talked about them in the 
cases like the NAACP v. Alabama. We need to be careful. So I do 
think foreign engagement poses a different issue, but kind of a 
scattershot approach that mainly hits American citizens is 
unwise.
    Mr. Gosar. You know, I agree with you, and let's just 
tailor that aspect. Do you think amending the Federal Election 
Campaign Act of 1971 to require what is already required of 
American citizens, the disclosure of the credit verification 
value, or the CVV, and a legal billing address, for all loaned 
contributions would help ensure that the credit cards are 
registered to someone who actually lives in the United States?
    Mr. Smith. Well, one thing you could do, for example--most 
campaigns for years did this voluntarily, and this became 
something of an issue because the Obama campaigns did not--was 
to put checks in place on credit cards, in particular, prepaid 
credit cards. That is the kind of thing that could be done by 
regulation through the FEC or I suppose by statue if there were 
a desire to do that, to ensure that those credit cards were 
tied to a U.S. individual, not just sort of handed out to 
whoever wants to use prepaid credit cards.
    Mr. Gosar. Well, and these are two great ideas, a CVV and a 
billing address. It would actually make sure that somebody's 
actually living in this country, wouldn't you agree.
    Mr. Smith. You're aware that people don't have to live in 
this country.
    Mr. Gosar. Oh, I understand.
    Mr. Smith. U.S. citizens live abroad and so on.
    Mr. Gosar. This definitely is a means of calibration that 
would stop some of the illegal contributions.
    Mr. Smith. It would probably be a safeguard. Again, one 
that most campaigns have followed and one that could be 
enacted, I think, either by regulation or statue.
    Mr. Gosar. You know, in the last administration, we saw 
multiple examples of average American citizens being targeted 
for their political beliefs, most notably the IRS and FBI 
targeting political opponents. With that in mind, H.R. 1 would 
create a partisan FEC--I think you addressed that--that could 
use the power of the Federal Government to quell speech that 
disagrees with it. What effects do you think this will have on 
free speech and discourse?
    Mr. Smith. Well, you know, I called it the new alien and 
sedition act, so I think that's a pretty strong Statement to 
put in very general terms. One of the things that has been an 
issue at the FEC and in enforcement in the States as well is 
the use of these complaint processes as political weapons in 
and of themselves. It often doesn't matter if you actually even 
prove a violation; you simply start the investigation process. 
Responding to an FEC investigation can be very costly. The 
investigation is intrusive. They can go into your strategies 
and tactics to tie up campaign time, to get bad press, and so 
on. So often it was said the punishment is the process rather 
than any fine that's meted out at the end in part because you 
quite likely did nothing wrong. So very definitely there can be 
a chilling effect here, and that chilling effect is most 
pronounced on small grassroots campaigns which don't have the 
lobbyists and the lawyers and so on who know these complex 
regulations and can deal with them easily.
    Mr. Gosar. So two quick questions. Can you explain what 
ethics reform, FEC restructuring, and a new Federal holiday all 
have in common?
    Mr. Smith. I suppose they all deal in some way with the 
Federal Government, but this is certainly a grab bag of bills. 
I would actually suggest that one of the best things the 
majority could do would be to divide this bill into its 
component parts so that they could be focused on one at a time. 
Many of them are only in the most vague sense related.
    Mr. Gosar. One last question. Why do you think my good 
friend from Maryland chose to combine such different topics 
into one bill? You started in on it, so----
    Mr. Smith. I think that would probably be a question better 
directed to your good friend from Maryland. I'm not going to 
try to read his mind.
    Mr. Gosar. I thank the gentleman.
    I yield back.
    Chairman Cummings. I yield to the distinguished lady from 
New York, Mrs. Maloney, for five minutes.
    Mrs. Maloney. Thank you, and I thank you and Mr. Sarbanes 
for your selfless, devoted work on H.R. 1 over many years.
    Mr. Amey, I'd like to ask you about Presidential contracts, 
the ability of the President and Vice President now under the 
law to compete against the Members of Congress--to compete for 
properties that other Federal employees and Members of Congress 
are barred by law from entering into contracts or leases. And I 
want to speak to the Presidential Conflicts of Interest Act, 
which is part of Intro 1, which would put a restriction on the 
President and the Vice President in entering into any 
contracts, which happens to be the standards for Members of 
Congress and Federal employees. Would you agree with the intent 
of Intro 1's specific proposal on Presidential conflicts of 
interest?
    Mr. Amey. Yes, Congresswoman. Obviously, you're talking 
about the General Services Agency's lease with President Trump 
and the Trump Hotel here in Washington D.C.
    Mrs. Maloney. Yes, sir.
    Mr. Amey. There is a provision in that lease, you know, 
that is up for debate. Obviously, the GSA and their legal 
counsel have had different feelings than a lot of people on 
this side of the table have had about the interpretation of 
that lease provision. The one problem and why H.R. 1 on this 
specific provision is necessary is it was in about 1994 that 
the Federal Acquisition Regulation stripped the provision that 
was called the Officials Not Benefit provision, and so it was 
in one of the acquisition reform bills, Federal Acquisition 
Reform Act or the Services Acquisition Reform Act, but that 
provision was stripped out, so it's no longer in the FAR.
    So I think it's important to put back, and you raise a good 
point. That provision actually mentioned Members of Congress at 
that time, and that has continued for Members of Congress but 
hasn't affected other people in the executive branch, and so I 
do think it's necessary.
    Mrs. Maloney. Well, as many of my colleagues know, in 2017, 
the members of this committee, the Democrats, literally sued 
for information about the lease and contract between the 
President's hotel here, the Washington, DC, hotel and the lease 
with the old office building. And we were told then by the 
general accounting services, the General Services 
Administration, that we were not entitled to exercise our 
oversight and responsibilities of reviewing this lease. They 
barred us from getting this information. So we are literally 
still in court trying to obtain this. Many of us feel that this 
is a glaring conflict of interest. Why shouldn't the Oversight 
Committee have access to leases and contracts that we want to 
question even if it includes the President of the United 
States? Now, in this case of the Trump International Hotel, the 
President is both the landlord and the tenant, and he 
ultimately also oversees GSA, the agency that was responsible 
for enforcing this lease, this contract. How can Congress, Mr. 
Amey, or the American people be sure that GSA is really acting 
impartially in carrying out the law when they are really 
interpreting what their supervisor----
    Mr. Amey. Well, when you have someone that's the landlord, 
the tenant, the judge, and the jury, and obviously appointed 
the head of the General Services Administration, then, at that 
point, it is a major conflict of interest. There are also some 
concerns because the Trump children were involved in the 
negotiation of that lease, and I'm actually outraged at the 
fact that the GSA hasn't turned over the information to 
Congress. That's where it is important. That's where 
transparency when it comes to government ethics matters, that 
we should be seeing as much information about that to remove 
the appearance of a conflict of interest but also to ensure 
that there's not an actual conflict of interest that needs to 
be resolved.
    Mrs. Maloney. Okay. Now, in this particular lease for the 
Old Post Office building, it explicitly prohibited an elected 
official from being a party, but GSA failed to enforce it, and 
I would say that there would definitely be an impact, and I'll 
ask Mr. Mehrbani.
    Mr. Mehrbani. Mehrbani.
    Mrs. Maloney. There could be a definite conflict of 
interest that could have a freezing effect on competition. How 
many people want to compete against the President of the United 
States for a lease or a contract? Wouldn't you agree that that 
would be a chilling effect on any competition? What would be 
the effect of this going forward?
    Mr. Mehrbani. I would agree with that, Congresswoman, and 
as you know, the inspector general of the General Services 
Administration recently released a report that was critical of 
GSA's analysis of the validity of this lease for improperly 
omitting constitutional issues from their analysis. And to me, 
that raises the question of whether there was improper 
influence or at least the specter of self-dealing to the public 
that greatly undermines public trust. It's also one of the 
reasons why I should say that the National Task Force for 
Democracy and Rule of Law, which is a Brennan Center initiative 
that includes some of your former colleagues in a bipartisan 
group of former Republicans and Democrats, and they've proposed 
extending the existing prohibition and the conflicts of 
interest law to the President and Vice President to avoid 
specific instances like this.
    Mrs. Maloney. And that's what H.R. 1 will do, and I 
strongly support it and urge its passage.
    Chairman Cummings. The distinguished gentleman from North 
Carolina, Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, and thank all of you 
for your testimony.
    Mr. Mehrbani, I guess you're in favor of matching dollars, 
using taxpayer dollars to match small donations as is outlined 
in H.R. 1. Is that correct?
    Mr. Mehrbani. The Brennan Center does support the proposal 
in H.R. 1, which is modeled after an existing proposal that has 
existed for years in New York which multiple----
    Mr. Meadows. Well, I've only got five minutes. Yes or no. 
Do you support it?
    Mr. Mehrbani. Yes.
    Mr. Meadows. So I guess here's the interesting fact that I 
just find just fascinating: A Democrat bill, H.R. 1, would 
actually use taxpayer dollars to reelect the Freedom Caucus 
chairman. I would--under their bill, I would get almost $4 
million of taxpayer dollars, and I would say I don't see any of 
my constituents in the audience here. I can't imagine that they 
would be happy with taxpayer dollars being used to reelect a 
Freedom Caucus chairman. Do you not see a problem when we use 
taxpayer dollars to reelect individual Members of Congress?
    Mr. Mehrbani. If I may.
    Mr. Meadows. I mean, would you support me financially?
    Mr. Mehrbani. I would support spending the equivalent that 
H.R. 1 would require, which I think is a dollar per citizen 
every year over 10 years.
    Mr. Meadows. It's a matching deal. We've done the math. 
It's $3.8 million that I would get because I'm one of the top 
10 in terms of small dollar donations in Congress. I would get 
$3.8 million under this bill for reelection. I cannot find 
anyone who holds government accountable that would think that 
that would be a wise use of taxpayer dollars. Would you?
    Mr. Mehrbani. Sir, campaigns need to be funded from 
somewhere.
    Mr. Meadows. I agree, but not my taxpayer dollars shouldn't 
be going to it, sir.
    Mr. Shaub, let me come to you. Are you in support of H.R. 
1's investigative mandate for OGE?
    Mr. Shaub. You know, I----
    Mr. Meadows. You were in the job.
    Mr. Shaub. I have said publicly that I'd prefer to see an 
inspector general that has global authority over every agency 
that doesn't have an inspector general and have supplemental 
ethics authority upon referral to OGE. That's a proposal I've 
presented to former Chairman Gowdy and current Chairman 
Cummings. I do support the current bill because I don't think--
--
    Mr. Meadows. But it has investigative authority. I've gone 
through it, Mr. Shaub, and let me tell you why I'm concerned. 
Because you came before my committee----
    Mr. Shaub. Yes.
    Mr. Meadows [continuing]. and you gave sworn testimony----
    Mr. Shaub. Yes, I did.
    Mr. Meadows [continuing]. which is exactly opposite of H.R. 
1, and yet here you are today espousing its merits, and I can't 
find why all of a sudden you would have this newfound interest 
to have investigative authority if it were not directed at the 
current President of the United States.
    Mr. Shaub. Yes. I have two Statements about that. One is I 
don't think it creates the kind of investigative authority that 
an inspector general does, so I don't think all investigative 
authority is created equally----
    Mr. Meadows. I agree with that.
    Mr. Shaub [continuing]. but it does create some. My views 
on that have changed. But this proposal----
    Mr. Meadows. With this President?
    Mr. Shaub. This proposal would not apply only to this 
President. It would apply to the next President.
    Mr. Meadows. No. Listen. It's not my first rodeo; it's not 
yours, either. But what I'm saying is I find it extremely 
hypocritical that you would come here today, having sworn under 
oath that this was not the way to go when there was a different 
President in the White House, and then here today--and followed 
it up with a letter. I mean, we've got numerous quotes from you 
over and over and over again which would undermine H.R. 1, and 
yet here you are today supporting that. How do you have this 
evolution in such a short period of time, Mr. Shaub?
    Mr. Shaub. Well, first of all, I was telling the truth 
then, and I'm telling the truth now, so let's be clear about 
that. I did disagree with the idea of investigative authority 
back then. I've now sat for two years and just watched----
    Mr. Meadows. So you were just wrong back then.
    Mr. Shaub. No, I wasn't.
    Mr. Meadows. Because I was suggesting that you should have 
the investigative authority, and you said, quote--let me quote 
you. Hold on -
    Mr. Shaub. No. I recall you suggested----
    Mr. Meadows. Let me quote you here. I said, ``So you do not 
want the authority to be able to investigate?''
    ``No, I don't think so.''
    I said, ``You don't want it,'' and, quote, ``Well, I don't 
think we should have it. What I might want one way or another 
is not relevant as it would not be the right thing,'' closed 
quote. All of a sudden today you're having an epiphany, and 
it's changing, Mr. Shaub?
    Mr. Shaub. No, it's not all of a sudden at all. It's after 
watching for two years somebody proved to me that the executive 
branch ethics program was much weaker and much more fragile 
than I ever thought it was. Frankly, I was naive. I never 
imagined the President could come in and refuse to eliminate 
his conflicts of interest, have appointees who are completely 
disinterested in government ethics, and have, with all respect, 
a Congress refuse to exercise oversight over them in that 
respect. So, in the absence of any other avenue, I do now 
believe that the Office of Government Ethics is going to have 
to fill the gap.
    Mr. Meadows. But, Mr. Shaub, that was precisely the point I 
made in 2015, and you disagreed with me then.
    I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Shaub. I'll just say you were right.
    Chairman Cummings. Thank you very much.
    Mr. Meadows. We can agree on that.
    Chairman Cummings. Thank you very much.
    We'll now hear from Ms. Norton of the District of Columbia.
    Ms. Norton. Thank you very much, Mr. Chairman, and 
unrelated to my question, I do want to thank Mr. Sarbanes for 
the findings in H.R. 1 regarding the D.C. Statehood Act because 
these findings simply speak for themselves. People I represent 
pay the highest taxes per capita in the United States. We do 
vote the committee of the whole but have no final vote on the 
house floor. I'm grateful to have a vote in this committee, and 
I thank you, Chairman Cummings, for agreeing to hold a hearing 
on this bill.
    But I want to speak about the parts of H.R. 1 which simply 
go to transparency. I think my first question is to Mrs. Hobert 
Flynn, but I honestly would like to hear Mr. Smith's view of 
this question. The Secretary of Education, Betsy DeVos, and her 
family have donated millions of dollars to organizations who 
lobby for education policy. Do either of you think that the 
public has a right to know if the Secretary has donated 
substantially to organizations, her background in donating that 
could now influence her policies as Secretary? First, Ms. 
Flynn, and I'd like to hear Mr. Smith on this question.
    Mrs. Hobert Flynn. Thank you. You know, Education Secretary 
Betsy DeVos and her family have given large sums of money to 
influence politics at all levels of government, including 
pressing for school voucher programs, something she's clearly 
very supportive of. According to the Center for Responsive 
Politics, DeVos and her family have donated over $20 million to 
Republican candidates, party committees, PACs, and super-PACs, 
and much of that political spending has been focused on 
education as she now influences an Education Secretary. You 
know, to me, I think it's important when the Senate is looking 
at the nomination, when the American people are paying 
attention, it's an important part of the equation that helps 
shed light both on issues that she cares about and also her 
investment in that. In fact, she gave an interview in Roll Call 
where she said she, quote, decided to--decided, quote, ``to 
stop taking offense at the suggestion that we are buying 
influence.'' Quote, ``Now I simply concede the point,'' she 
wrote 20 years ago, ``they are right. We do expect some things 
in return. We expect to foster a conservative governing 
philosophy consisting of limited government and respect for 
traditional American values.'' So I think it's important for 
the nomination process to have a fuller picture of where their 
fundraising and political spending is going.
    Ms. Norton. Mr. Smith, how could that do any harm? How can 
it do anything but good, the more information we have?
    Mr. Smith. I am, I have to say, shocked--shocked--to 
discover that the Republican appointee to Secretary of 
Education has been a Republican who has donated to Republican 
candidates and causes and that her viewpoints----
    Ms. Norton. So would you be shocked for us to know, for the 
public to know about that background history as she takes 
office?
    Mr. Smith. I think that, as Ms. Hobert Flynn said, I agree 
that's something that certainly Senators could ask during the 
confirmation process. I find it hard to believe that there's an 
ethical conflict in somebody----
    Ms. Norton. There may not be . Reclaiming my time. I'm not 
implying an ethical conflict, and my questions about 
transparency are simply going to that, you know. Let it all 
hang out, and then let everybody make their own judgment. Let 
the committee make its own judgment. Let the public make its 
own judgment.
    Mr. Smith. I have a number of questions about your personal 
life that I would be interested in, but I won't ask them here 
today.
    Ms. Norton. Well, come on and go straight ahead.
    Mr. Smith. You know----
    Ms. Norton. The point is it's not her personal life that 
I'm asking about, Mr. Smith. What we're asking about is her 
donations of money.
    Mr. Smith. These are not----
    Ms. Norton. Donations of money in ways that could reflect 
on a trust she's now been given as part of her enforcement 
activities. So it's not about just let it all hang out about my 
personal life. It's about the relevance to what it is she is 
enforcing. She is enforcing education policy. She's had a known 
not only position but given millions of dollars in ways that 
may conflict with parts of that policy. As I indicated when I 
opened this line of questioning, it's only about transparency.
    Let me go on to ask about the Conflicts of Political 
Fundraising Act. I'm a co-sponsor of that. It's also in H.R. 1. 
It simply requires----
    Chairman Cummings. Your time has expired.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Cummings. Mr. Amash.
    Mr. Amash. Thank you, Mr. Chairman.
    I yield to the ranking member, Mr. Jordan.
    Mr. Jordan. I thank the gentleman for yielding.
    Professor Smith, does H.R. 1 require States to offer early 
voting?
    Mr. Smith. Yes.
    Mr. Jordan. Does H.R. 1, Professor, require States to offer 
no excuse absentee voting?
    Mr. Smith. Yes.
    Mr. Jordan. Does H.R. 1 require paid leave for Federal 
Workers to be poll workers?
    Mr. Smith. Yes.
    Mr. Jordan. Does H.R. 1 require States to let released 
felons vote?
    Mr. Smith. I believe it does.
    Mr. Jordan. Does H.R. 1 require taxpayers to finance 
campaigns?
    Mr. Smith. Definitely.
    Mr. Jordan. Definitely. Does H.R. 1 require taxpayers--as 
Mr. Meadows was alluding to just a few minutes ago, does H.R. 1 
require taxpayers pay for the campaigns of candidates they 
oppose?
    Mr. Smith. Yes. For example, under the system, if I were to 
contribute $10 to the reelection campaign of the President, the 
folks on this side of the aisle would collectively and with 
others contribute $6 or something like that.
    Mr. Jordan. Yep. Does H.R. 1 require States to have same-
day registration for voters?
    Mr. Smith. I believe it does.
    Mr. Jordan. Does H.R. 1 require automatic voter 
registration?
    Mr. Smith. I believe that's correct.
    Mr. Jordan. Does H.R. 1 encourage States to pre-register 
16-year-olds?
    Mr. Smith. That I don't know off the top of my head.
    Mr. Jordan. I'll tell you that one. It does.
    Mr. Smith. I'll take your word for it.
    Mr. Jordan. I appreciate that. Professor, does H.R. 1 
require election day to be a Federal holiday if you work for 
the Federal Government?
    Mr. Smith. Yes, it does.
    Mr. Jordan. And does H.R. 1 require the outing of donors, a 
direct violation of freedom of association. You give to a 
campaign; it permits that through the disclosure you're going 
to be outed.
    Mr. Smith. A great many provisions require a tremendous 
amount of outing of a great many donors.
    Mr. Jordan. Does H.R. 1 make the bipartisan FEC a partisan 
organization?
    Mr. Smith. I believe that it effectively does.
    Mr. Jordan. Yes. And the example--I liked the example you 
used. We'll take the U.S. Senate. Let's say Mitch McConnell and 
Ted Cruz are the Republicans. Let's say Cory Booker and Kamala 
Harris are the Democrats, and then the independent is Bernie 
Sanders. That's supposed to be balanced, right?
    Mr. Smith. That would work, yes.
    Mr. Jordan. That would work. That's exactly what the 
majority intends for it to be in 2021, something like that. 
Maybe not those people, but I think people understand what 
we're getting at here. Does H.R. 1 require--does H.R. 1 limit 
free speech?
    Mr. Smith. I believe that it does in significant ways, as I 
pointed out in my testimony, in ways that it was not limited 
even before some of the Supreme Court decisions that H.R. 1 
purports to want to overturn.
    Mr. Jordan. So let me take a whack at a little summary 
here, Professor. H.R. 1 requires taxpayers to pay for a holiday 
on election day for government workers. H.R. 1 requires 
taxpayers to pay for six days of paid leave for government 
workers who want to be poll workers. H.R. 1 requires taxpayers 
to pay for politicians' campaigns, and if those same taxpayers 
give to some organization, some C-4, they can be outed under 
H.R. 1 so that the left can or anyone can harass them and their 
family.
    Mr. Smith. Yes.
    Mr. Jordan. Such a deal for the taxpayer, right?
    Mr. Smith. I'll leave that judgment to you folks who get to 
vote on it.
    Mr. Jordan. I mean, this is exactly where H.R. 1 sends us, 
and that's why we're opposed to it, and that's why we're going 
to keep fighting it. That's why we're saying the things we're 
staying. So anything I'm missing in my summary there, 
Professor? Anything you'd like to add?
    Mr. Smith. I would only add that I think the disclosure 
provisions are often worse than people think because they're 
defining as political activity things that have never been 
defined as political before, and you run the risk of 
regulations swallowing up the entire discourse in which the 
public engages. So I would really say I think the provisions 
are worse than people think and that they're often hidden 
through the complex interrelationships of----
    Mr. Jordan. Give me an example.
    Mr. Smith. Well, one example would be if an organization, 
for example, were to hire somebody who had previously been an 
intern, a paid intern for a Member of Congress, that 
organization would then be prohibited from making any 
communications that were deemed to promote, attack, support, or 
oppose that candidate, and that vague term could apply to 
almost anything, praising the candidate for introducing a bill, 
criticizing the Congressman for opposing a bill, whatever it 
might be.
    Mr. Jordan. Wow. That would put the whole consulting 
business in this town out of business.
    Mr. Smith. It's not just the consulting, of course. It puts 
out of business all of the interest groups----
    Mr. Jordan. Of course.
    Mr. Smith [continuing]. and all of the civic groups that 
people belong to.
    Mr. Jordan. I appreciate it.
    Mr. Chairman, I yield back.
    Chairman Cummings. Thank you very much.
    I'm going to yield myself a few minutes.
    One of the things, Ms. Hobert and Mr. Mehrbani, that gave 
me chills when I read it was the 2016 opinion of the Fourth 
Circuit Court of Appeals. You know, we're sitting around here 
acting like it's not an inalienable right to be able to vote. 
It's something they said that is chilling, and we can argue 
back and forth all we want. They talked about the legislature 
down there in North Carolina, and this is a quote from the 
fourth circuit. These are Federal judges. They said before 
enacting that law, the legislature requested data on the use by 
race of a number of voting practices. Upon receipt of the race 
data, the general assembly enacted legislation that 
restricted--come on. You're talking about an inalienable 
rights--that restricted voting and registration in five 
different ways, all of which disproportionately affected 
African Americans. They went on to say--this is the fourth 
circuit. I didn't say this. The Federal court said it. They 
said in response to claims that intentional racial 
discrimination animated its action. The State offered only 
meager justifications, although the new provisions target--and 
this is what the court said--although the new provisions target 
African Americans with almost surgical precision. They 
constitute inapt remedies for the problems assertedly 
justifying them and, in fact, impose cures for problems that 
did not even exist. They went on to say: Thus, the asserted 
justifications cannot and do not conceal the State's true 
motivation, end of quote.
    The reason why that quote means so much to me is that one 
year ago today, on my mother's dying bed at 92 years old, 
former sharecropper, her last words were: Do not let them take 
our votes away from us.
    They had fought, she had fought and seen people harmed, 
beaten trying to vote. Talk about inalienable rights. Voting is 
crucial, and I don't give a damn how you look at it. There are 
efforts to stop people from voting. That's not right. This is 
not Russia. This is the United States of America. I will fight 
until the death to make sure every citizen, whether they're 
Green Party, whether they're Freedom Party, whether they're 
Democrats, whether they're Republicans, whoever, has that right 
to vote. Because it is the essence of our democracy, and we can 
play around and act like it's not, and guess what? I want to be 
clear that when they look back on this moment 200 years from 
now, that there are those of us who stood up and were able to 
stay they stood up and said we will defend the right to vote. 
Because you know what the problem is? For so many people, their 
rights are pulled away from them. Then they got to put in laws 
to get them back. Pulled away from them. What does that mean? 
They cannot progress rapidly. They cannot progress with the 
rest of society. All they're trying to do is trying to control 
their own destiny. I'd just like to hear your comments, Ms. 
Hobert and Mr. Mehrbani, on the fourth circuit's opinion.
    Mrs. Hobert Flynn. So we have seen since 2010 a number of 
States move efforts to shut down opportunities for people to 
vote. We've seen proof of citizenship laws, photo ID. We've 
seen early voting days repealed. We have seen States that have 
election day registration repealed, all in efforts to make it 
difficult for people to vote. A lot of this is focused on so-
called in-person voter fraud, which there is a 0.0003 percent 
chance that that happens. It is a very rare thing. So what we 
have is all these measures that are trying to tamp down on 
something that isn't happening out there, and the end result is 
we see many people purged from voter rolls and other things 
with the thought that they're going to be addressing something 
that isn't happening very frequently.
    So that is a real challenge and one that we've seen in 
States across the country. The reforms in H.R. 1, to put in 
place early voting, to deal with voting machines so that 
they're working and functioning, to add poll workers where we 
have a real shortage of poll workers so people aren't standing 
in line and leaving. All of these things are put in place to 
help create opportunities for people to vote.
    Election day registration is a perfect antidote to a purge 
so that you can show up on election day; if you see that 
there's a problem, then you can register vote and vote on that 
day. That's why it's so important to be looking at these 
reforms.
    Chairman Cummings. Mr. Mehrbani.
    Mr. Mehrbani. The one thing I want to add to that is these 
reforms not just make it easier for people to vote and are 
proven to increase turnout and participation; they actually 
increase the accuracy of the rolls. So what we're hearing as 
reasons not to adopt things like automatic voter registration, 
same-day voter registration. As was said earlier, these are 
reforms that already exist in States across the country, and 
the Brennan Center has studied the implementation of them, and 
they've shown to increase the accuracy of the poll and to even 
decrease existing errors in the system.
    I just want to say, Mr. Chairman, I appreciate your telling 
that incredibly personal story and the impact that it had on me 
personally and I'm sure on everyone who was listening.
    Chairman Cummings. Mr. Hice.
    Mr. Hice. I thank the chairman.
    I would just--Mr. Chairman, all of us want integrity at the 
voting booth, but if you are somehow implying that only 
Republicans have been engaged in voter fraud, I challenge that 
and take great offense at it.
    We just saw in Texas tens of thousands of illegal aliens 
voting, and this is an issue that goes far and wide. It is not 
on one side of the aisle, sir, and I would like that to stand 
corrected. This bill does not----
    Chairman Cummings. Will the gentleman yield?
    Mr. Hice. Yes, sir.
    Chairman Cummings. I'll give you your second back.
    Nobody said that. I didn't say that. I quoted the court, 
and I did not just blame Republicans or anybody. All I know, I 
was trying to make it clear that it has been made far difficult 
for people who look like me to be able to vote, period, and we 
all need to be addressing that. That's what I was trying to 
say.
    Mr. Hice. Reclaiming my time.
    Chairman Cummings. If you took it any other way, I did not 
intend it that way.
    Mr. Hice. It was certainly implied that way, Mr. Chairman. 
I accept what you just said.
    My contention across the board, however, H.R. 1 does not 
address this problem. It makes the potential for voter fraud 
even a greater possibility. This is not a solution to the 
problem that all of us in this room are concerned about.
    Mr. Smith, I'd like to go to you. Should taxpayers be 
required to pay for political speech?
    Mr. Smith. Well, I think there are a couple of points 
there. One is sort of a moral point that was raised earlier by 
Mr. Meadows and by Mr. Jordan, that there's something sort of 
deeply wrong about forcing people to fund the political 
campaigns of candidates they greatly abhor, but there's also a 
practical problem here.
    Mr. Hice. Well, let me go on. All right. So yes or no, 
should----
    Mr. Smith. I mean, I think clearly not.
    Mr. Hice. Okay.
    Mr. Smith. There is a practical problem as well; it is not 
just an ideological problem.
    Mr. Hice. Well, absolutely. Maybe we'll have time to get 
into some of that. So they should not be required to pay for 
political speech. I'm assuming you would also agree that they 
should not be required to pay for political speech that they 
disagree with.
    Mr. Smith. Well, in particular, yes.
    Mr. Hice. All right. Our colleagues on the other side have 
pointed to so-called success in expanding public funding of 
election in places like Arizona, Maine, New York, and so forth. 
So far as you're aware, have these programs been successful?
    Mr. Smith. No. Typically the measure they use for that is 
how many candidates choose to take the money. So they're kind 
of saying: Well, if the government offers you free money and 
you take it, wow, the program was successful. But in terms of 
quality of governance, almost all the claims do not come true. 
We're told that it would elect more minorities; that has not 
been the case. To elect more women, that's not been the case. 
You don't see much difference in the makeup of legislators. 
Certainly I don't think people look at, you know, New York City 
and say: Wow, now that they've had this matching program there, 
they're well governed, you know, or better governed than in the 
past.
    Mr. Hice. So have these programs been successful in 
preventing corruption?
    Mr. Smith. I don't see any way they have. In fact, they're 
often an avenue for corruption because, again, you have things 
that were previously private money people, you know--if a 
candidate wants to waste money, he can do it. Now it's public 
money. If he diverts it to personal use, it creates a greater 
scandal.
    Mr. Hice. Do these programs really limit the influence of 
special interests groups?
    Mr. Smith. I've not seen that at all in part because 
particularly with these matching funds types of things, groups 
that are well organized to go out and solicit large amounts of 
small contributions can do that. They also invite fraud in the 
sense that, in the past, you know, a person might contribute 
250-or $500,000 but now he tries to get a bunch of other people 
to each contribute an amount below the matching amount and give 
them money to make the contributions because then you up the 
matches. So they're really sort of invitation to corruption.
    Mr. Hice. You touched on this a while ago. I'd like for you 
to go a little bit further. But what will this program do to 
public discourse and free speech?
    Mr. Smith. Well, public financing programs I think are not 
helpful for free speech in part because again, they tend to be 
avenues for corruption in many ways. We also find there are 
studies that show that the small donors that are often 
solicited for these things actually extend to be more partisan 
donors than sort of more institutional people so that they tend 
to lead to further polarization of the political system.
    Mr. Hice. Okay.. One last question. Going back, it was 
interesting to me when you mentioned the five-member versus 
six-member on the FEC. Can you elaborate on that, why six 
members, in your opinion, is the appropriate way to go, as 
opposed to five?
    Mr. Smith. Sure. It's a unique mission in the sense that it 
directly regulates elections and who's going to win those 
offices or can have that effect. So it's always required four 
votes on a six-member commission; that is, you had to have some 
measure of bipartisanship. Once you go to a five-member 
commission, you'll lose that requirement of bipartisanship. 
Furthermore, it will totally go away because the chair, again, 
will have this tremendous authority on his own, even if all the 
Commissioners oppose him, to subpoena people and launch 
investigations and so on.
    Mr. Hice. Thank you very much.
    I yield back.
    Chairman Cummings. Mr. Raskin of Maryland for five minutes.
    Mr. Raskin. Thank you, Mr. Chairman. I want to first start 
by applauding the sentiments that you just expressed. There's 
been a profound struggle for the right to vote in American 
history. We began with the vast majority of people in our 
country not having the right to vote, but through political 
struggle and constitutional change, we've enlarged the 
electorate to include African Americans and to include women, 
to include 18-year-olds. We've dismantled the property and 
wealth qualifications, and at every turn, there have been 
forces of conservatism and reaction that have tried to stop the 
changes, oftentimes claiming fraud, oftentimes claiming that 
the people newly enfranchised weren't really, truly deserving 
voters. So we're seeing the same historic process reenacted 
right now.
    But that's just the first part of the issue. Once we get 
people elected to office, there's the problem of the agency of 
people who go into government. The Founders of the Constitution 
wrote in Article I, section 9, the Emoluments Clause to make 
sure that the President and other Federal officials would not 
be on the take from foreign powers, kings, princes, and 
governments, would accept no money at all, no payments 
whatsoever, no offices, no titles, no emoluments. And, yet, 
with that signal original breach, that original sin, this 
administration basically opened the floodgates on corruption in 
Washington and then appointed a fox to preside over every 
henhouse in Washington, every regulatory agency taken over by a 
regulated industry.
    So we need to protect the right to vote against these 
constant efforts to take people's right to vote away, and we 
need to make sure that the people come to work in Washington 
are actually serving the American people. And that's what part 
of this legislation is all about. It's about strengthening the 
Office of Government Ethics, and it includes the executive 
branch Comprehensive Ethics Enforcement Act, which I'm proud to 
introduce on the House side along with Senator Blumenthal on 
the Senate side. One of the things it would do is to provide 
the Director of the Office of Government Ethics with the same 
authority that the inspectors general have to subpoena 
documents, and I'm wondering, Mr. Amey, starting with you, how 
would this help the work of the OGE Director, and can you give 
us some examples of what that might mean?
    Mr. Amey. Well, specifically, I mean, that's one of the 
problems. The OGE currently has some authority, very limited 
authorities to conduct investigations, hold a hearing, and ask 
government officials to come in and testify. But that needs to 
be strengthened. We have found that OGE is really a paper 
tiger. Without this authority, it's very difficult. The ethics 
system is really based on self-policing, you know, from day 
one. I mean, it's up to a government official to come to an 
ethics officer and disclose certain things. During the 
confirmation process, it's up to them to go to OGE and make 
certain disclosures. And that's where at least allowing OGE to 
subpoena and hold the proper investigation with the proper 
information in front of them will instill the fact that, you 
know, we're trying to get to the conflicts of interest and 
whatever waivers, recusals, or exemptions apply to make it more 
transparent so we're aware of those conflicts and we can handle 
them in due course.
    Mr. Raskin. Thank you very much.
    Mr. Shaub, you testified before this committee in 2015 
while you were the Director of Office of Government Ethics, and 
during that hearing, Mr. Chaffetz, who was then the chairman of 
the committee, was frustrated with some of your testimony 
because OGE was not doing its own investigations, and he 
thought it was toothless. He said, and I quote: And I'm just 
suggesting that you're just shuffling paperwork. If you're just 
taking everything at face value and then reprinting and putting 
it on the shelf, what good are you? Why should we even have you 
if you're not going to actually review them and hold people 
accountable and do an investigation?
    H.R. 1 would, in fact, give OGE precisely the authority to 
do meaningful investigations that Chairman Chaffetz and our 
counterparts on the other side of the aisle were demanding. 
Isn't that right?
    Mr. Shaub. I think that's absolutely right. At the time, I 
tried to explain that, as a practical matter, despite the 
appearance of language that might look like investigative 
authority in the current version of the Ethics in Government 
Act, OGE was powerless to actually conduct any kind of 
investigation. This bill would change that.
    Mr. Raskin. I wonder if you would give us a sense of this 
culture of corruption and lawlessness which now permeates 
Washington. Most people would be astounded to know that people 
come to Washington, go into a Federal agency, not in order to 
pursue the common good and protect the public interest but in 
order to pursue other agendas. Can you suggest from your wide 
experience in this field what those other agendas might be?
    Mr. Shaub. Well, I think one of the concerns that we look 
at is the types of loyalties that they have, and the goal of 
any ethics program should be to ensure that the loyalty of the 
government officials is only to the people they serve and not 
to companies for which they previously lobbied or previously 
served as a high-level executive or anything like that.
    Mr. Raskin. Mr. Amey, I'll go to you.
    Mr. Amey. If I may, I think the one problem that we've seen 
with the ethics system is, even if you look at OGE's 
prosecution surveys or if you would go back through the Public 
Integrity Section at the Department of Justice, most of it is 
low-hanging fruit. I mean, most of it is low-level people that 
are, you know, handling a contract or doing something. As you 
go up the chain of command, the ethics laws kind of dwindle 
off, and I truly believe it's kind of a catch-me-if-you-can 
system these days.
    Mr. Raskin. I yield back, Mr. Chairman. Thank you very 
much.
    Chairman Cummings. Mr. Comer for five minutes.
    Mr. Comer. Thank you.
    Chairman Cummings, I don't want to make it harder for 
people to vote. I just want to make sure that elections are 
fair and that only eligible voters vote. I'm from rural 
Kentucky. Many elections this past election cycle were decided 
by 10 votes or less.
    But I have a huge problem with the proposal for same-day 
voter registration. What I witnessed in California this past 
Federal election cycle with the questionable ballot harvesting 
gave me grave concerns about the integrity of our elections and 
who is actually casting votes in some States that have passed 
this type of version of election reform.
    So I want to ask my first question to Mr. Smith and to 
touch upon what Congressman Hice mentioned. This proposal, one 
of the things it does is it removes the standard of the 
chairman and vice chairman being from separate parties. In 
Kentucky, we have a Board of Elections, and it's split down the 
middle. Kentucky, it's is half Republican, half Democrat. How 
might consolidating power in the hands of a single party and a 
chairman of a single party undermine the legitimacy of the 
Federal Election Commission?
    Mr. Smith. As I mentioned earlier, historically it's 
required bipartisanship. There has to be some degree of buy-in 
from one commissioner who has identified with the other side of 
the aisle, and that disappears here. As somebody pointed out, 
in theory, the independent commissioner doesn't need to be 
truly independent. But it's even worse than that, actually, 
because if the President simply doesn't fill certain positions, 
then a three-member quorum which could be two members of one 
party and one independent or something could be free to launch 
whatever investigations it chose, pass the regulations. The 
regulations that you pass, of course, can be terribly biased in 
favor of one party or the other. But also the enforcement 
process, the priorities you choose, how you choose to go after 
people, whether you choose to pursue certain folks, can be very 
damaging. As I pointed out, oftentimes, the punishment is in 
the process itself. You get bad press. Your resources become 
tied up. And this can be on charges that are very bogus, that 
have almost no real foundation in fact.
    So a partisan FEC is a very dangerous potential weapon, and 
it's worth noting that groups--you know, from time to time, the 
FEC will get criticized. Republicans will say something like: 
You know, this is a biased agency.
    And the very first response that always comes out of the 
mouth of people like some of the organizations represented down 
the table here is: It requires some degree of bipartisanship, 
right?
    See, they themselves know that that's really the only thing 
that gives the agency its legitimacy is that bipartisan makeup.
    Mr. Hice. Right. To followup on that, this proposal, H.R. 
1, also allows the general counsel to initiate an investigation 
without bipartisan support and issue subpoenas on his own 
authority. Does the bill provide sufficient checks on the 
general counsel to make sure this significant authority is not 
abused?
    Mr. Smith. Well, I don't think--there is the possibility 
for the Commission to override the general counsel's actions, 
but if the Commission doesn't act, doesn't have enough time to 
act for some reason or another, can't muster a quorum, the 
general counsel can simply plow ahead. Plus, it allows the 
Commissioners themselves to dodge any responsibility. They can 
simply not vote and let the general counsel's recommendation 
move forward. And note that first general counsel will be 
appointed by the chair with concurrence of two of the 
Commissioners. He has to have concurrence of two others for 
this, but those will all be people appointed by this first 
President who makes that appointment. And once he's in, he can 
stay in indefinitely, unless you can muster a majority to vote 
him out.
    Mr. Hice. Let me ask you this last question. The asserted 
purpose of H.R. 1 is to increase transparency in the electoral 
process. I think we would all support that. But in what way 
does creating a secretive taxpayer-funded blue ribbon panel to 
lobby the President about whom to appoint to the FEC increase 
transparency?
    Mr. Smith. Well, this is a fascinating little part of the 
bill. One part of the bill requires the creation of this blue 
ribbon panel that's supposed to make recommendations to the 
President as to whom he ought to appoint to the FEC. It's not 
quite clear what the purpose of the panel is since they don't 
have binding authority, but it is very interesting that the 
first thing the bill does, then, is take this body out of the 
requirements of the Federal Advisory Committee Act, which 
exists precisely to make sure that it operates transparently, 
and it allows it to operate in secret.
    Mr. Hice. Thank you, Mr. Chairman. I yield back.
    Chairman Cummings. Thank you very much.
    Mr. Rouda.
    Mr. Rouda. Thank you, Mr. Chairman, and thank you for your 
comments earlier. A clear reminder for all of us here as to 
what our obligations are to all Americans. In 2010, Citizens 
United was settled by the Supreme Court. In that decision, the 
majority made it very clear that they did not think that 
decision would have virtually any impact on dark soft money 
coming into the election process. The reality is, in that same 
year, there was approximately $140 million of dark money that 
came into the election process. Yet, in 2016, it was $1.6 
billion--$1.6 billion. All because the Supreme Court decision 
basically said corporations are people too. And I don't know 
about you, but personally, I have never held hands with a 
corporation. I've never dated a corporation. I've never made 
out with a corporation. And I'm pretty sure no one else in this 
room has either. We know that dark money leads to undue 
influence at best and, at worst, outright corruption.
    At the end of the Constitutional Convention in 1787 in 
Philadelphia at Independence Hall, 11 years after the 
Declaration of Independence was adopted by our Founders, 
Benjamin Franklin was exiting the building. And a citizen came 
up to him and asked him, Mr. Franklin, what kind of government 
do we have? And he answered and said: A republic if you can 
keep it.
    Let that be a reminder to all of us as we contemplate the 
amount of dark money and soft money coming into our government 
and the ethics that can be corrupted by it, that this is 
something that our Founders never envisioned. Now more than 
ever, we do need to restore decency, transparency, and 
responsibility by introducing ethics reforms for the President, 
Vice President, and all Federal officers and employees.
    This administration has had at best a very awkward 
relationship with ethics and integrity. We must make sure the 
President and his family members do not use the Presidency to 
enrich themselves at the expense of the American people. I know 
every single one of my colleagues here didn't come to Congress 
to get rich. They came here because they believe in America, in 
putting service above self, and country over party. We can do 
that by passing commonsense reforms to our political system. 
Let's work together to reduce the influence of big money in 
politics, strengthen our rules for public service.
    With that, I'd like to ask Mr. Shaub, does current law 
prohibit all Federal employees from taking official actions to 
benefit their own financial interests, and if so, what gray 
areas still exist that need to be addressed?
    Mr. Shaub. Well, I think the biggest gap is that it doesn't 
cover the President or Vice President, and it's important to 
remember that that exemption was not supposed to be some kind 
of perk of high office, but rather, a recognition that a 
President can't really recuse, not participate in urgent 
matters of State which is why divestiture was always the 
practice until now.
    I think there are other conflicts of interest in the form 
of these golden parachutes were people are not sufficiently 
kept out of matters affecting those companies that give them 
big payouts. And I think that there's an oversight problem 
that's become apparent that there just is a limited ability to 
be able to get into the matter and find the information because 
OGE doesn't have the authority to do it, and I think this bill 
addresses that.
    Mr. Rouda. Yes, please.
    Mr. Amey. Congressman, I just also want to point out the 
fact that obviously there are some constitutional issues with 
applying certain ethics rules and regulations to the President. 
Some of those have been handled, and I think the provision in 
H.R. 1 that specifically talks about this that was the sense of 
Congress in the rules don't apply but they should act as if 
they do actually follows the precedent of, in 1974, of 
Assistant Attorney General Scalia in which he said the rules 
don't apply, but it's good policy and that the exemptions to 
them when they don't apply should be common--you know, like, 
should be common and should be transparent so that we can 
follow that and be aware of it.
    And so, you know, this isn't a partisan issue. The bill 
actually has come out where OLC and the Department of Justice 
has said that has been the precedent for this, you know, for 
30, 40 years.
    Mr. Rouda. Thank you very much.
    I yield back.
    Mr. DeSaulnier. Mr. Cloud, you're next.
    Mr. Cloud. Thank you, Mr. Chairman.
    There's no doubt that government is broken. This Congress, 
I can tell you especially after being here for six months, my 
thoughts on that matter have only been confirmed.
    But for all what we'll assume are the best intentions, 
historically centralizing power has only led to more 
corruption. I think a great example of this was how we saw the 
IRS weaponized against groups that didn't agree with the 
political leaning at the time. I'm also puzzled by the kind of 
thinking that says, well, we don't trust government, so let's 
give them more power. I think that the Founders understood this 
in creating a Federalist republic form of government.
    And, Mr. Smith, that brings me to a question. You mentioned 
in your testimony--I believe I counted 28 times you mentioned 
the word unconstitutional. Could you speak to some of your 
concerns with this bill in reference to the Constitution?
    Mr. Smith. Sure. And I'll focus on the speech parts because 
that's what the Institution for Free Speech does--the Institute 
for Free Speech. One of the things it does, for example, is it 
would regulate speech that uses the term--it uses the term 
promotes, supports, attacks, or opposes a candidate. That term 
is extremely vague. It's not really clear what it means. If 
somebody were to--if a union were to take out an ad saying it's 
unfair that Federal employees should have to be laid off during 
a shutdown, you know, tell President Trump to open--reopen the 
government, is that attacking President Trump or not? The 
Supreme Court has long said you have to have a clear standard 
so that people know what they can say and what they don't when 
they have to start reporting to the Federal Government, when 
their ability to finance ads is limited in different ways. So 
that's one thing, the vagueness of that phrase and another 
phrase.
    Another example would be that the bill presumes that 
certain people are coordinated, coordinating their activities 
with candidates even if they are not actually, in fact, 
coordinating their activities with candidates. I used an 
example earlier in response to one of your colleagues noting 
that, for example, if you had a former intern, paid intern go 
off and work for a citizens' group and they had concerns about 
the bill, about some bill, they would be prohibited from 
advertising on that because anything they did would be 
considered coordinated even if it wasn't, and because they're a 
corporation, they can't do coordinated expenditures at all. 
This would mean, for example, if somebody were to leave the 
minority staff and go to the majority staff and go to work for 
the ACLU, at that point the ACLU would have to be quiet on any 
kind of legislation they might want to comment on. That's 
clearly unconstitutional under a case called Colorado 
Republican Campaign Committee. The Supreme Court said you can't 
presume coordination. People actually have to engage in 
coordination before you can tell them that you can limit their 
political speech. So those would be just two quick examples of 
where I think the bill clearly goes off the rails and into the 
teeth of existing constitutional law.
    Mr. Cloud. Thank you. This bill also purports to limit 
foreign influence in elections. Could you speak to how this 
limits foreign interference, namely, to illegal immigration, 
illegal immigrants voting in our elections?
    Mr. Smith. I'm really not prepared to talk about how it 
pertains. Obviously illegal immigrants are not allowed to vote 
in U.S. elections. And, you know, because we're a speech 
organization, we've not really commented much on the voting 
rights provisions of the bill.
    I will say the one thing that's often overlooked is the 
issue is not really that illegal immigrants might vote in 
elections. I think the more legitimate concern is that illegal 
immigrants then count in the census, and thus, they inflate the 
congressional representation of areas in which they tend to 
settle. And it's no secret that those areas have tended to be 
in recent years areas represented by Democrats. So essentially 
it's a way that you kind of boost Democratic representation 
because these nonvoters are included in the population. Now, 
that may not be an inherently wrong thing. There's different 
theories of regulation or representation, but that is the 
effect there.
    Mr. Cloud. Well, can you speak to any certain provisions in 
this bill that might secure the vote for citizens?
    Mr. Smith. Secure the vote for citizens?
    Mr. Cloud. Yes.
    Mr. Smith. I'm not quite sure I follow that. Sorry, 
Congressman.
    Mr. Cloud. Any provisions in the bill that ensure that only 
citizens are voting in our elections.
    Mr. Smith. I don't think there are any that take that 
approach at all. Indeed, to the extent people are worried about 
that, the bill probably has provisions that cut the other 
direction.
    Mr. Cloud. Okay. Could you then address whether or not 
minority groups would be--have their vote count more or less 
should illegal immigrants be invited to vote?
    Mr. Smith. Well, I'm not sure it would change whether other 
votes would count more or less. It would have an impact, of 
course, on the makeup of the electorate, and that would 
obviously have an impact on who wins elections at some point.
    Mr. Cloud. Okay. Thank you. I yield back.
    Mr. DeSaulnier . Thank you, Mr. Cloud.
    Next up is Ms. Wasserman Schultz.
    Ms. Wasserman Schultz . Thank you, Mr. Chairman.
    My question is for Mr. Shaub. The Presidential Transition 
Act allows candidates for the incoming Commander in Chief to 
submit transition team members who would be eligible to receive 
selected security clearances, and the current process is 
clearly very flawed. I think you referenced that in your 
opening remarks. There is really no transparency and a risk of 
compromising our national security.
    And we've got familiar facts here. The Trump transition 
team requested a security clearance for his son-in-law, Jared 
Kushner, and that gave him access to classified information 
that we now know he should not have had. His history of failing 
to report meetings, extensive business relationships should and 
apparently did raise red flags that he could potentially be 
compromised. And just a couple of weeks ago we learned that 
Federal specialists proposed rejecting his application because 
of concerns about his family business and his foreign contacts, 
travel, and meetings that he had during the campaign and that 
he could potentially be subject to undue influence.
    Now we know that those same specialists were overruled by 
their politically appointed supervisor, Mr. Carl Kline. And in 
fact, Mr. Chairman, as I'm sure you're aware, Mr. Kline 
overruled 30 such clearances, which is an unprecedented amount. 
Apparently there had only been one prior overruling, I think, 
in the history of that process.
     Now, for the record, the committee might recall I actually 
proposed two amendments in the appropriations bill in 2017 to 
revoke Mr. Kushner's security clearance because he repeatedly 
violated the rules and didn't report meetings that he had had 
because he forgot about them. I don't know about you, but I 
generally remember the foreign contact meetings, and I have a 
record of them. I don't just forget them and repeatedly have to 
amend applications. Most people wouldn't.
    So it strained credulity to suggest that these were 
meetings that he didn't remember. So we can't have the fox 
watching the hen house any longer. And this bill at least takes 
a step toward transparency. But how can we ensure that these 
overrulings are no longer allowed, and what steps do you think 
need to be taken to be sure that people in the White House and 
the executive branch who should not have security clearances 
don't have them, can't get them, and have them revoked when 
they have been temporarily granted?
    Mr. Shaub. Well, I think that--turning first to your 
comments about the transition team, I think it's very important 
that this bill addresses ethics for the transition team. It's 
well established that it's not governmental, yet it does 
receive governmental funds; it's full of people who are about 
to become government officials; and it's full of people who are 
getting access to information.
    In terms of the security clearance process, I don't have 
specific recommendations on that. That's not my specialty. It 
is important, however, to depoliticize it as much as possible 
and take steps to make sure that there isn't political 
interference in the security clearance process. I also think in 
this case we have a nepotism problem where you've got an 
individual who repeatedly amended his security clearance form. 
I have never in all my years seen as many amendments to a 
financial disclosure form as he had to make, and I think that 
this is the kind of thing that would ordinarily potentially 
lead to either a termination or a revocation of security 
clearance. But you've got a President's son-in-law in office, 
which is another majority departure from the prior 50 years of 
governmental practice.
    Ms. Wasserman Schultz. Thank you.
    Yes, Mr. Mehrbani.
    Mr. Mehrbani. If I just may say on security clearances, 
having worked on hundreds of these, not once out of all of my 
experience in the White House do I recall overruling the 
decisions of a career professional, and I think making sure 
that that process is led by career professionals is one way to 
prevent that from occurring.
    Another way, especially for those who are nominated to 
Senate-confirmed positions, is ensuring that their background 
investigations are fully completed before those folks are 
nominated and considered by the Senate.
    Ms. Wasserman Schultz. Mr. Mehrbani, if I can ask you since 
you do have experience in reviewing those security clearances, 
why do you think that--why did you not--do you not recall any 
of the clearances you reviewed being overruled?
    Mr. Mehrbani. I don't recall any being overruled.
    Ms. Wasserman Schultz. But for--I mean, for what valid 
reason would there be to overrule a recommendation that someone 
not be granted a security clearance? What's the risk of doing 
that?
    Mr. Mehrbani. So I never viewed myself as an expert, and it 
requires expert experience and training to understand the 
different factors that go into conducting a background 
investigation, what factors should be considered derogatory and 
potentially put an individual at risk of compromise or other 
ways put national security at risk. And so I deferred to the 
professionals who did that for many years.
    Ms. Wasserman Schultz. So it's your opinion that 
potentially national security is jeopardized with the 
overruling of these recommendations?
    Mr. Mehrbani. I do think it puts national security at risk, 
yes.
    Mr. DeSaulnier. Thank you, Mr. Mehrbani.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman, I yield 
back.
    Mr. DeSaulnier. I recognize Mr. Armstrong for his five 
minutes.
    Mr. Armstrong. Thank you, Mr. Chairman.
    My question is for Mr. Smith. First, do you know the only 
State in the country without voter registration?
    Mr. Smith. No.
    Mr. Armstrong. Well, I'm going to give everybody a little 
trivia lesson. It's North Dakota.
    Mr. Smith. That was my guess, but I'm under oath.
    Mr. Armstrong. One of the things I think we run into when 
we do Federal one-size-fits-all piece of legislation is maybe 
the negative disparate impact it would have on certain rural 
States that do things in a very unique way, which we're very 
proud of. North Dakota is the only State in the country without 
voter registration. We have an incredibly robust rural voting 
program.
    We have voting--counties that vote exclusively by mail, and 
we have developed these programs with input from our citizens, 
our electorate, our county officials and dealing with those 
issues. We currently have no-excuse absentee ballot--absentee 
voting. We allow felons to vote immediately upon release from 
prison. Our poll workers are almost exclusively volunteers 
across the entire State.
    So, in short, we have the best and easiest voting booth 
access in the entire country, and we are incredibly proud of 
that. We also are set up somewhat uniquely in that we have 
cities, counties, legislative districts, and one very big 
congressional district.
    But we have also gone through a lot of different issues, 
and one of the questions I have is: Each of these counties 
interacts differently with their voters based on the resources 
available to them. And if I read this bill, it requires 
mandatory 15-day early voting. Is that correct?
    Mr. Smith. That's my understanding.
    Mr. Armstrong. So what if you're an exclusively vote-by-
mail county?
    Mr. Smith. Well, I'm not sure what you mean. I mean, if 
you're an exclusively vote-by-mail county, you have a long 
period to vote, generally.
    Mr. Armstrong. So, in some of our counties, we actually go 
earlier than 15 days; some of them we go shorter, but we have 
extended hours to like 10 p.m. So, when we do mandatory early 
voting, is that required in each district or each precinct or--
I mean, we set things up differently; like, in our larger city, 
we have five legislative districts, but our early voting is at 
one or two locations in that city.
    Mr. Smith. Yes, as I understand the bill, it would require 
all citizens have an opportunity for early voting. I am not 
aware if it specifies all the polling locations where those 
have to take place.
    Mr. Armstrong. And we have gone through significant 
affidavit reform in our State and have dealt with these issues 
both at the county level, the local level, and the State level, 
and we have worked forward to require all different forms of 
ID, whether they're student IDs, and created mechanisms where 
somebody can come to the polling place with an ID and a 
different address, and we just do things that way.
    But what we have gotten away from is the affidavit process. 
And the reason we have gotten away from it is we have found 
through a volunteer voting in excess of--we have found that 
there has never been any mechanism to check an absentee ballot 
after it's been submitted to whichever district it is. Now, 
this would require the absentee ballot process to come back--or 
the affidavit process to come back into place, correct?
    Mr. Smith. That would be my understanding, yes.
    Mr. Armstrong. And we--and this might be a little change, 
but it's really important to the voters in North Dakota. So we 
start our absent--our early voting process I think for military 
deployed overseas as early as August. And we have, as I said, 
no-excuse absentee ballots. But what we require is that our 
ballots are postmarked the day before the election.
    And in North Dakota, we really, really try to make sure the 
election is over on election day. North Dakotans don't 
understand how an election can change by 12,000, 13,000, 14,000 
votes in the two to three weeks after an election day. Now, I'm 
not in the business of telling people in California or 
somewhere else how to do their voting laws, but that just is 
something that is not appropriate here. And this would require 
ballots to be postmarked up until election day, correct?
    Mr. Smith. That's correct.
    Mr. Armstrong. So, when we are implementing laws at the 
Federal level to deal with perceived or real problems in other 
areas of the country, I think we run into serious concerns 
about particularly rural districts who deal with these issues. 
Right now in our State legislature, we have a bill moving in 
place where county auditors and State legislators are dealing 
with voting precincts in particular counties, and it's a very 
unique North Dakota problem. And I would just caution everybody 
here to remember that those issues and those challenges are 
better suited to be dealt with by the people who are closest to 
their communities and dealing with the issues we face.
    And when we deal with these laws at this level, we turn 
this into something that we can't control at our local level. 
And we have unique challenges in North Dakota that other people 
don't.
    Mr. Smith. It's worth noting, Mr. Armstrong, that there 
actually are no Federal elections; there are States elections 
for Federal office, and you made that point very well.
    Mr. Armstrong. I yield back.
    Mr. DeSaulnier. Thank you, Mr. Armstrong. The gentleman 
from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to thank the 
panel.
    I wish Congressman Meadows were still here because I'm 
delighted that he's thinking of stepping into the small donor 
matching system that is proposed in H.R. 1. Because when you 
step into that system, you step into a system that is owned by 
the people. This is why it's in the bill because the public is 
tired of feeling like their elections, their system, their 
government, their democracy is owned by special interests, big 
corporations, Wall Street, oil and gas industry, super-PACs, 
lobbyists, everybody but them. This is the power move. They 
want to own their democracy again. And all across the country, 
as you pointed out, citizens are stepping up and taking that 
power back by creating these systems where they're the owners, 
the rightful owners of their own democracy. And they can get 
that back, Mr. Mehrbani, I think you said, for a dollar a 
year--$1 a year.
    Mr. Mehrbani. That's right.
    Mr. Sarbanes. Per citizen. To ransom your democracy back 
from the people who have taken it hostage, so you can call the 
shots. So I would love for Congressman Meadows to step into 
that system. I'd like every Member--it's a voluntary system; 
you don't have to do it. But I'd like every person to step into 
that system because that's owned by the people. That's the 
whole idea.
    People are sick and tired of being sick and tired, to use 
Fannie Lou Hamer's words, at a system that is run by somebody 
else. So that's the argument for that system. Now, let me get 
to a couple of other things that have been mentioned here in 
the three minutes and 15 seconds that I have.
    Somebody said at the outset that this was theater. I think 
the ranking member said maybe it was theater. This is not 
theater. We're trying to set the table on the democracy, make 
people feel more empowered, like their voice counts and they're 
not locked out and left out of their own democracy and their 
own government and their own republic. That's why we're doing 
this.
    Somebody said, why are we hooking all these things 
together? Voting, ethics, campaign finance. Because the people 
have told us: If you just do one and you don't do the others, 
we're still frozen out; the system is still rigged. You fix the 
voting stuff, but if you go to Washington and nobody is 
behaving themselves, that doesn't solve the problem. Or you fix 
the ethics part, but we're still--the system is still owned by 
the big money and the special interests because they're the 
ones that are underwriting the campaigns, then we're still left 
out; the system is still rigged. You got to do all of these 
things together to reset the democracy in a place where it 
respects the average citizen out there, who right now is 
sitting in their kitchen, they're looking at the TV screen, 
they're hearing about billionaires and super-PACs who are 
making decisions inside conference rooms somewhere on K Street 
that affect their lives. And all they're saying is: We want 
back in. We're tired of sitting out here with our noses pressed 
against the window looking in on the democracy that we have no 
impact on. That's why we're linking all of these things 
together: to reset the table so the special interests aren't 
the ones that are calling the shots.
    Is voter fraud the problem? Mr. Smith would think you--
would have you think so. Voter fraud is not the problem. We 
know the statistics on voter fraud; they're microscopic. Voter 
suppression is the problem, the obstacle course that has been 
set up that makes it so difficult for people to register and 
get to the polls, and then it demoralizes them. And they stay 
home; it's not worth it.
    We have to fix that. As Congressman Cummings said, that's 
the baseline. The most powerful form of protest and engagement 
an American citizen has is the right to vote. But too many 
people in too many parts of this country still can't get to the 
ballot box. That's all it's about: Coordination. Violating free 
speech. We can have sensible coordination rules so the super-
PACs aren't coordinating with candidates and violating the 
campaign contribution limits and so forth. We can do that. We 
can protect free speech while actually giving more speech back 
to people who are denied it right now. That is not a problem.
    We're not outing donors. The provisions of transparency in 
this bill are targeted to mega donors who give more than 
$10,000, who right now are hidden behind this Russian doll kind 
of structure where you can't see who it is. Who's behind the 
curtain? Who's putting all this money in the campaigns? The 
public wants to know that. That's reasonable. Let them see 
what's happening to their own democracy and give them their 
power back. That's what H.R. 1 is, For the People. That's how 
we designed it.
    Mr. Smith. Mr. Chairman.
    Mr. Armstrong. I yield back my time.
    Mr. Smith. Mr. Chairman, if I may, because Mr. Sarbanes 
specifically referenced something and said that I said this.
    Mr. DeSaulnier. Very quickly.
    Mr. Smith. In a very loud voice. I have not addressed the 
question of voter fraud. That's not what the Institute for Free 
Speech does. And I just want to make that clear that he's 
imputed to me comments that I did not make.
    Mr. DeSaulnier. Thank you, Mr. Smith.
    Mr. Grothman from Wisconsin.
    Mr. Grothman. A few questions. I'll start out with Mr. 
Smith again since he's all warmed up. H.R. 1 is a big bill, and 
it takes a lot of time to go through it. Do you think the 
public will be able to read and understand how this bill 
affects their ability to participate in political discourse?
    Mr. Smith. I'm sorry. I didn't quite catch the operative 
verb in that question. Was it----
    Mr. Grothman. Do you believe members of the public will be 
able to read and understand----
    Mr. Smith. I don't think they would have the faintest idea. 
Again, one of the problems anytime I think you put together a 
570-page sort of omnibus bill is that it becomes very hard for 
people to grasp what it is that's going on, including I would 
suspect Members.
    Mr. Grothman. Do you think more careful drafting could 
solve that problem?
    Mr. Smith. Well, I think that splitting the bill up would 
allow it to be considered in its component parts, and people 
might decide some parts are worth keeping and some are not. I 
think do think there was a certain amount of carelessness in 
drafting or, again, perhaps some disingenuity. I mean, when you 
have a section titled Preventing Super PAC-Candidate 
Coordination that applies to every citizen in the United 
States, not just super-PACs, that seems to be some kind of 
drafting problem.
    Mr. Grothman. Okay. Just a general question. You know, I 
can't tell you--you know, probably the most powerful special 
interest in every election is the media. And I can't tell you 
how many times I'm told: You know, you can do this or you can't 
do that because this is the way it's going to be spun in the 
newspapers or spun on TV.
    I don't have an answer to this question, but when I look, 
there's a study that shows--when you look at like journalism, 
communication, tenure-track professors, 20 Democrats for every 
1 tenure-track position. And it just dominates this building as 
people try to form their press releases or Statements not to 
get in trouble with the media.
    Do any of you have any suggestions as to what we can do, or 
is it just something we're going to have to deal with a 
situation in which apparently 95 percent of the professors, 
tenure-track professors in journalism and communications, where 
the people who, you know, determine how what we do here is 
reported, are Democrat in nature. Does anybody have any--would 
you agree with me that it's hard to have fair elections as long 
as that happens, and is there anything we can do about it?
    Mr. Smith. It's clear--I'll go ahead and take the first 
stab at it. It's clear that the media has a tremendous amount 
of influence in elections, and they remain largely unregulated 
by this. And I'm not sure that you decrease that influence by 
putting limits on what groups of people can say and what 
citizens, you know, in the country operating through the groups 
they join can say and do.
    I will personally say and I have often said in the context 
of elections, is the current system perfect? Is it perfect to 
have a system in which people are relatively free to 
participate and give money? Well, it's not perfect, but as 
Churchill once said, it seems to be better than all of the 
alternatives. And that's somewhat true here as well. As much as 
the biased media may be a problem, the alternatives are 
probably not better. And I think this is something that each 
side would do very well to remember from time to time: that the 
world is not perfect and we're not going to have perfect 
elections. We try to do the best elections we can, and for most 
of our history, that has meant entirely unregulated elections, 
and I don't think we have much to show for the last 40 years of 
very heavy regulation.
    Mr. Grothman. I agree with you. The government shouldn't be 
weighing in on regulating what people can say or what type of 
people are hired, but given that I assume the majority of these 
tenure-track people work for public universities, I just 
wondered if there's a--I mean, a lot of people feel there is an 
unfairness out of there, you know, that you have to overcome 
not only your opponent, but the mainstream media. No one knows 
suggestions how to deal with it.
    Okay. I'll go to something else, and people always ask me 
why we don't talk about this: the influence of money in 
elections. During the last administration, we had a situation 
in which the Secretary of State's husband was paid a half a 
million dollars on a speech in Russia. And, you know, I don't 
think there'd be any question if the Secretary of State herself 
had accepted $500,000, but do you think that we should begin to 
regulate the size of checks people are getting from spouses of 
relevant figures? Would that cause people to have more 
confidence in what goes on?
    Mr. Smith. I always think the detail or the devil is in the 
details, but I will say that too often the response has been to 
put limits on the American people, you know, rather than say 
maybe the limit should be on the people who are actually 
serving in government, including their families having to give 
something up.
    Mr. Grothman. Okay. Thank you very much.
    Mr. DeSaulnier. Thank you.
    Next up is the gentlelady from California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    This is a great segue. Mr. Smith just suggested that maybe 
the families of people in government should have some 
restrictions on their income. And I'd like to draw attention to 
Mr. Shaub, who has been of great service to our country, and to 
all of you for your presentations here today.
    But Ivanka Trump, who last I noted was the daughter of the 
President of the United States, has businesses. And she was 
granted 34 trademarks in China after her father was elected and 
she became a member of the administration. These trademarks 
were granted during a period of economic tension between the 
United States and China and coincided with the Trump 
administration's lifting a ban on U.S. sales of technology to 
Chinese firm ZTE, which violated U.S. sanctions with illegal 
sales to Iran.
    Mr. Shaub, what are the risks to the American people about 
these kinds of conflicts of interests?
    Mr. Shaub. Well, I think these and all conflicts of 
interests create the risk of a divided loyalty. The American 
people ought to be able to confidence that their leaders in 
Washington are serving their best interests and not their own 
person financial interest. I think the situation got worst when 
the President departed from past traditional interpretation of 
the nepotism law, which for 50 years and at least I believe 
four OLC pieces of guidance had told President's they couldn't 
do that, and the consequence has been that she's been allowed 
by the White House to retain the types of assets that even this 
White House is not allowing other people other than her husband 
to retain.
    Ms. Speier. So strengthening the antinepotism laws would be 
a key component if we're trying to clean up the mess that is in 
the White House right now?
    Mr. Shaub. I absolutely think so.
    Ms. Speier. Thank you.
    Mrs. Flynn, I serve on the Intelligence Committee, and I'm 
deeply troubled at what appears to be Russian engagement 
through 501(c)(4)'s in this country, whether it's the NRA or 
other nonprofits that are created for the express purpose here 
in the United States to lobby on behalf of Russia as it related 
to the Magnitsky Act.
    So right now there is no limitation on how much money can 
be contributed by a foreign government entity to a 501(c)(4). 
Is that correct?
    Mrs. Hobert Flynn. I believe that is, yes.
    Ms. Speier. And there is no disclosure required as well. Is 
that correct?
    Mrs. Hobert Flynn. I believe that's right.
    Ms. Speier. So, in your estimation, would it be prudent for 
us to, one, limit the amount of contributions that a foreign 
individual can make to a 501(c)(4) and, two, that all of that 
be subject to disclosure?
    Mrs. Hobert Flynn. I think it would be very important--you 
know, there are limits--there are bans on foreign nationals 
giving money in campaign contributions, and I think we should 
be looking at those kind of limits for--and then certainly 
disclosure for contributions to 501(c)(4)'s.
    Ms. Speier. There are four Cabinet officials in this 
administration--the Secretaries of Health and Human Services, 
Veterans Affairs, Interior, and the EPA Administrator--who have 
all resigned amid evidence that they had forced American 
taxpayers to foot the bill for extravagant and unnecessary 
travel expenses.
    And I would like to ask Mr. Mehrbani if you can speak to 
the impact these resignations have had on the ability of the 
executive branch agencies to function effectively and how we 
can relieve ourselves of the abuse that some of these 
Secretaries of various Cabinet posts were engaged in?
    Mr. Mehrbani. Thank you. I'm going to refer back to 
something that I think multiple members of this panel said 
earlier, which is that leadership on ethics issues really sets 
the tone, from my experience, for the rest of staff at an 
agency. And that leadership should actually be coming from the 
White House. And there have been multiple practices over, 
spanning multiple decades by Republican and Democratic 
administrations and Presidents that have done just that to make 
sure that they are avoiding even the perception of a conflict 
of interest or using their position for private gain. That's a 
bedrock principle in our democracy. And the bill, the H.R. 1, 
enshrines many of these practices into law and I think would 
serve as the good first step for preventing some of what we've 
seen over the last couple of years.
    Ms. Speier. I yield back.
    Mr. DeSaulnier. Thank you.
    I now recognize Mr. Higgins from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Chairman, in the spirit of bipartisanship, let me say I 
agree that H.R. 1 should be divided into its component parts 
because perhaps it could be argued that there's some worthwhile 
legislation written in here. But as a totality of circumstance, 
one word describes this thing: wrong. Just wrong.
    This bill is exactly reflective of why our Founding Fathers 
passionately debated after the Revolutionary War prior to the 
formation of our Federalist Society and central government, it 
passionately debated whether or not this thing could even work. 
If we could have a Federalist Society and a union of States 
with a strong central government and still maintain individual 
rights and freedoms.
    My colleague across the aisle mentioned Russia. Russia has 
been mentioned several times today. This bill resembles Russian 
Government policy. Most of us here have taken an oath before we 
became Congressmen and Congresswomen. I took an oath as an Army 
soldier. I took an oath as a police officer, a sheriff's 
deputy. You panelists before us are courageous to come before 
this committee where many very serious decisions will be made, 
debates shall be engaged. But most of you have taken an oath as 
well.
    And may I say that the oaths that I took in my life were 
not to a company commander or a general or a sheriff or a chief 
or a marshal; they were to the Constitutionalist principles 
that my oath represented.
    Mr. Smith, does our First Amendment protect freedom of 
speech?
    Mr. Smith. I think that goes without saying.
    Mr. Higgins. Does H.R. 1 abridge the freedom of speech?
    Mr. Smith. Pardon. Pardon, I didn't hear that.
    Mr. Higgins. Would you agree that H.R. 1 abridges the 
freedom of speech?
    Mr. Smith. Oh, yes, yes.
    Mr. Higgins. Absolutely. It gives almost total partisan 
government control over the freedom of political speech in a 
representative republic where these freedoms have been paid for 
by the blood of patriots past. Are we worthy to be the 
Americans that occupy this body? Did our Founders intend, Mr. 
Smith, for there to be an expiration date on our First 
Amendment rights? Any panelist?
    Mr. Smith. No.
    Mr. Higgins. Of course not. That expiration date will come 
if H.R. 1 passes.
    Mr. Smith, I'd like to ask you, according to the tone that 
my colleagues have expressed here, Americans watching this 
would think that they stand for the abolishment of big money in 
political campaigns. According to my research, the Association 
of Trial Lawyers gave Democrat candidates in 2018 $2.2 million 
while they gave Republicans candidates about 130 grand. This is 
not a bill of the people, by the people, and for the people; 
it's a bill of trial lawyers, for trial lawyers, and by trial 
lawyers.
    It greatly restricts the freedoms of speech of Americans 
assembled as nonprofit organizations or individual citizens. It 
hides behind titles that are quite misleading in an era when we 
know that many Americans that have the right to vote yes, but 
don't get past headlines.
    I'd like to specifically ask in my time remaining, Mr. 
Smith, for you to address, explain to us all, please, what 
coordinated spenders are--this is quite troubling to me. I've 
read your testimony and those of your colleagues, the 
panelists. Incorporated nonprofits, defined as coordinated 
speakers, would be banned from spending money on speech.
    This is directly contrary to judicial decisions past. 
Please, in my remaining time, 40 seconds, explain to America 
what that is.
    Mr. Smith. In my prepared remarks, I have a number of 
examples, and the way this works is, of course, most groups 
that people belong to, the ACLU, the NRA, Right to Life, 
Planned Parenthood, the NAACP, are incorporated, and if 
corporations can't make any coordinated expenditures because 
those are treated as contributions--and so just to give some 
examples, if a member were to purchase a ticket to a fundraiser 
for one of these organizations for $100 or $150 and, five years 
later, that member declared his candidacy for the Senate, that 
organization could not make any expenditures, not only directly 
advocating his election or defeat, but even talking about the 
candidate in ways that might be deemed by someone to be----
    Mr. Higgins. In my remaining 5 seconds, yes or no, would 
this have a chilling effect on the freedom of speech of 
Americans assembled from sea to shining sea?
    Mr. Smith. Absolutely.
    Mr. Higgins. I yield back, Mr. Chairman.
    Mr. DeSaulnier. I thank the gentleman. I thank you for 
taking our allotted time.
    I now recognize myself for five minutes.
    This is a fascinating conversation. I want to thank Mr. 
Sarbanes for his leadership on this. He's put incredible hours 
into it, and I appreciate it. I've seen him in action across 
the country talking to electeds of both parties.
    What this really is about is power. Mrs. Hobert Flynn, in 
1970, when John Gardner started your organization, a Republican 
who served a Democratic administration, it was about power 
then; it's about power now. And we've grown. Clearly, there is 
growing research that says that Congress does not reflect the 
average person, and it reflects more people who contribute and 
have influence on both sides.
    From my opinion and many others, that has contributed 
significantly to our income inequality and the lack of 
opportunity, particularly for younger people. Would you address 
sort of the historical perspective from Common Cause and John 
Gardner's admonition, which is, as you recall, holding power 
accountable over time?
    Mrs. Hobert Flynn. Yes. Thank you. You know, the challenge 
here is that what we're talking about is the ability of wealthy 
interests to speak louder than the rest of the American people, 
and that's what we object to. What we are doing is not actually 
putting in place anything that violates anybody's freedom of 
speech. We're talking about simple things like disclosure, a 
voluntary system of small donor reform.
    Candidates do not have to participate. And the fact is, you 
know, how this will be funded depends on the system. In 
Connecticut, they used unclaimed assets to fund the public 
financing system. The difference is that people who are not 
wealthy and not connected to special interests can run for 
office. They have a competitive chance. They don't have to be 
connected to wealthy interests. And then, once elected, they 
are free to serve based on what their constituents want, and 
they don't have wealthy interests coming up and saying: Hey, 
this is what I need you to do; I need this tax break or 
something else.
    It frees them.
    And so what you see in those kinds of systems is that 
people govern differently. I saw a palpable difference with 
lobbyists who were treated by freshman who ran under the 
program, they didn't think they were powerful; they treated 
them: You can tell me information, but you have no control, no 
monetary control.
    So they can enact what is best in the best interests of 
their citizens.
    Those are the kinds of things we need to look at. A 
comprehensive approach also deals with ethics. So you may have 
this system set up that people can choose to run in or not, but 
if, in the end, they're taking money through the backdoor and 
gifts and money that goes to their businesses, they still could 
have corruption problems. So you need to look more broadly at 
these issues.
    You also need not only to lift the voice of small donors 
but lift the voice of all Americans so that they can vote and 
have a voice in their democracy. And so that's why you see 
these voting measures that are so incredibly important to make 
it easier, and actually it ends up saving money when you move 
to online voter registration. There are checks in place so that 
you're not capturing illegal immigrants in voting.
    So what we want to see is a chance to have, you know, 
independent agencies, and the Federal Election Commission is 
one that is flawed, that has not worked, and you've had 
Republicans block enforcement of the law. We need agencies that 
enforce the law with integrity. And so you can have things like 
blue ribbon commissions like they talk about in this bill. 
There are other models to look at in Wisconsin with the 
Government Accountability Board; in Connecticut, with 
bipartisan and independence involved. So it is a holistic 
approach to try and ensure that people's voices are heard in 
our democracy.
    Mr. DeSaulnier. Just an editorial comment. I'm constantly 
reminded as a former history major, the history around us when 
Teddy Roosevelt talked about the malefactors of great wealth, 
and the influence of trusts in the Congress. And what that led 
to is the inequality that we now rival at this point in time.
    Mr. Shaub, just briefly, could you elaborate on the 
positive aspects of making you, your former position, directly 
be able to respond, to report to Congress and some trouble we 
have had with OGE getting written responses that both the 
Republicans and Democrats have been frustrated by?
    Mr. Shaub. Yes, I think one of the problems is that OGE's 
two sister agencies, the Merit Systems Protection Board and the 
Office of Special Counsel, can communicate directly with 
Congress, but OGE has to go through the political approval 
process through the White House's Office of Management and 
Budget, which means that OGE doesn't have the ability to alert 
Congress of problems or give them answers to the information 
they're seeking. And we've seen inspectors general and those 
other two agencies I've mentioned use this ability to great 
effect to protect the government's integrity.
    Mr. DeSaulnier. Thank you.
    I yield the remainder of my time. Our next speaker is Mr. 
Gibbs from Texas--Ohio.
    Mr. Gibbs. Ohio. Texas is a great State, though.
    Mr. DeSaulnier. It's hard to miss. Ohio.
    Mr. Gibbs. Thank you to our witnesses. First of all, I want 
to say, on Ohio, I think the process is working pretty good. I 
know Mrs. Flynn talked about long lines. A number of years ago, 
when I was in the State senate, we passed some legislation, no-
excuse absentee ballots; voting, you can get 30 days before the 
election. A lot of people are doing that. You don't--so there's 
no--we don't have lines anymore, and we don't need a Federal 
holiday so you can go vote. You got 30 days to go vote. If you 
can't vote in 30 days by mail or by absentee, that just raises 
a lot of interesting questions about your voting, your 
abilities.
    Also, in Ohio, the secretary of State, the practice has 
been to send out two or three weeks before absentee ballots 
will be mailed out to every registered voter in Ohio saying: 
Hey, if you want to let us know; here is an application for an 
absentee ballot. Send it in; we'll send you an absentee ballot.
    Pretty simple.
    So, Mr. Smith, going through, I got some questions here. It 
is my understanding that this bill authorizes a three-judge 
panel here in the U.S. District Court in the District of 
Columbia to redraw congressional districts in the States. Is 
that in the bill?
    Mr. Smith. I believe that's correct, but again, that's 
outside of the area that I'm most focused on.
    Mr. Gibbs. Okay. It's just bizarre that we have federalism 
and States' rights, that we'd have a three-judge panel here in 
Washington, DC, a one-size-fits-all for all the rest of the 50 
States. So that's a big problem with the bill.
    Also, as we have a discussion that authorizes Federal 
employees, the poll workers, and pay them and all that. We 
obviously don't need that in Ohio. We have a good system, a 
bipartisan system. And every county board has two Republicans, 
two Democrats, and at every precinct that the polls workers, 
it's 50/50 bipartisan. When they count the ballots, it's all 
bipartisan, and that's probably why you haven't heard a lot of 
problems in Ohio, like other States.
    Mr. Gibbs. You know, it's also interesting what we saw--
what the IRS did a few years ago targeting conservative groups. 
Mr. Smith, do you think that this bill would actually open up a 
can of worms or give more empowerment to bureaucrats here in 
Washington, DC, where we can see abuse of that type in the 
future?
    Mr. Smith. We often say, you know, the purpose of 
disclosure is for the people to monitor their government, but 
it's not for the government to monitor their people. And this 
gives a lot more information to government. And a lot of it is 
intended, you know, opens up the possibility of that sort of 
retaliation or, alternatively, the online harassment and so on 
that private individuals can engage in.
    Mr. Gibbs. I appreciate that.
    Mr. Smith. That's a long way of saying yes.
    Mr. Gibbs. I got that. Also, in the bill, as was talked up 
by my colleague Mr. Meadows from North Carolina, the 6-to-1 
payment of Federal taxpayer dollars. So, if you have a $200 
contribution, you get $1,200 taxpayer dollars. I don't see how 
that is a good thing, where in the Constitution or anywhere it 
says that. I could be a taxpayer; I don't want my money going 
to my opponent, say, my tax dollars. So it's a big fundamental 
problem with that. I have major concerns, and I think that 
opens up a can of worms that is really a huge problem.
    I also wanted to ask: You hear so much attack on political 
action committees, PACs. Mr. Smith, you may be the best one to 
answer this, I don't know, anybody that wants to answer it. 
Where do political actions committees get their money?
    Mr. Smith. Political action committees get their money from 
individuals, traditional PACs do. Now, super-PACs, as they're 
called, can take money from corporations and unions, but they 
are not able to contribute directly to candidates or to 
coordinate anything with candidates.
    Mr. Gibbs. I appreciate that. I make the point because I 
got attacked because I take political action money, but it 
comes from businesses in my district, a lot of it. It comes 
from associations. You know, everybody has somebody lobbying 
for them in D.C. If you're a member of a retirement 
association, any organization, you got a lobbyist here.
    Mr. Smith. And to be more precise, if I could interrupt, 
Congressman. It actually comes from the involuntary 
contributions from the employees of those businesses and trade 
associations.
    Mr. Gibbs. That's absolutely right, unlike another entity 
on the labor side that's not voluntary. So that's a point that 
I think is really important that needs to be made, that this 
money is coming--that people voluntarily support, they could be 
insurance agents supporting the company they work for; they 
could be members of a farm organization, supporting what the 
organization is out there advocating for, and they support 
that. If they didn't support it, they wouldn't give the money 
because it's voluntary. So this attack on this and then to put 
the provision in this bill, if you take political action 
money--I believe it's in the bill--you don't get the 6-to-1 
match. I believe that's correct in the bill. So it's definitely 
a partisan bill and targeted for their partisan activities.
    I yield back.
    Mr. Sarbanes.[Presiding.] The chair recognizes Ms. Ocasio-
Cortez for five minutes.
    Ms. Ocasio-Cortez. Thank you, Chair. So let's play a game. 
Let's play a lightning round game. I'm going to be the bad guy, 
which I'm sure half the room would agree with anyway, and I 
want to get away with as much bad things as possible, ideally 
to enrich myself and advance my interest, even if that means 
putting my interests ahead of the American people.
    So, Mrs. Hobert Flynn--oh and, by the way, I have enlisted 
all of you as my coconspirators, so you're going to help me 
legally get away with all of this. So, Mrs. Hobert Flynn, I 
want to run. If I want to run a campaign that is entirely 
funded by corporate political action committees, is there 
anything that legally prevents me from doing that?
    Mrs. Hobert Flynn. No.
    Ms. Ocasio-Cortez. Okay. So there's nothing stopping me 
from being entirely funded by corporate PACs, say, from the 
fossil fuel industry, the healthcare industry, Big Pharma; I'm 
entirely 100 percent lobbyist PAC funded. Okay. So let's say 
I'm a really, really bad guy, and let's say I have some 
skeletons in my closet that I need to cover up so that I can 
get elected.
    Mr. Smith, is it true that you wrote this article, this 
opinion piece for The Washington Post entitled ``Those payments 
to women were unseemly. That doesn't mean they were illegal''?
    Mr. Smith. I can't see the piece, but I wrote a piece under 
that headline in the Post, so I assume that's right.
    Ms. Ocasio-Cortez. Okay. Great. So green light for hush 
money. I can do all sorts of terrible things. It's totally 
legal right now for me to pay people off. And that is 
considered speech. That money is considered speech. So I use my 
special-interest-dark-money-funded campaign to pay off folks 
that I need to pay off and get elected.
    So now I'm elected, and now I'm in, I've got the power to 
draft, lobby, and shape the laws that govern the United States 
of America. Fabulous.
    Now, is there any hard limit that I have, perhaps Mrs. 
Hobert Flynn, is there any hard limit that I have in terms of 
what legislation I'm allowed to touch? Are there any limits on 
the laws that I can write or influence, especially if I'm--
based on the special interest funds that I accepted to finance 
my campaign and get me elected in the first place?
    Mrs. Hobert Flynn. There's no limit.
    Ms. Ocasio-Cortez. So there's none. So I can be totally 
funded by oil and gas. I can be totally funded by Big Pharma, 
come in, write Big Pharma laws, and there's no limits to that 
whatsoever?
    Mrs. Hobert Flynn. That's right.
    Ms. Ocasio-Cortez. Okay. So--awesome. Now, Mr. Mehrbani, 
the last thing I want to do is get rich with as little work 
possible. That's really what I'm trying to do as the bad guy, 
right? So is there anything preventing me from holding stocks, 
say, in an oil or gas company and then writing laws to 
deregulate that industry and cause--you know, that could 
potentially cause the stock value to soar and accrue a lot of 
money in that time?
    Mr. Mehrbani. You could do that.
    Ms. Ocasio-Cortez. So I could do that. I could do that now 
with the way our current laws are set up? Yes?
    Mr. Mehrbani. Yes.
    Ms. Ocasio-Cortez. Okay. Great.
    So my last question is--or one of my last questions, I 
guess I'd say, is it possible that any elements of this story 
apply to our current government and our current public servants 
right now?
    Mr. Mehrbani. Yes.
    Mrs. Hobert Flynn. Yes.
    Ms. Ocasio-Cortez. So we have a system that is 
fundamentally broken. We have these influences existing in this 
body, which means that these influences are here in this 
committee shaping the questions that are being asked of you all 
right now. Would you say that that's correct, Mr. Mehrbani or 
Mr. Shaub?
    Mr. Mehrbani. Yes.
    Ms. Ocasio-Cortez. All right. So one last thing.
    Mr. Shaub, in relation to congressional oversight that we 
have, the limits that are placed on me as a Congresswoman 
compared to the executive branch and compared to say the 
President of the United States, would you say that Congress has 
the same sort of standard of accountability, is there more 
teeth in that regulation in Congress on the President, or would 
you say it's about even or more so on the Federal?
    Mr. Shaub. In terms of laws that apply to the President?
    Ms. Ocasio-Cortez. Uh-huh.
    Mr. Shaub. Yes, there's almost no laws at all that apply to 
the President.
    Ms. Ocasio-Cortez. So I'm being held and every person in 
the body is being held to a higher ethical standard than the 
President of the United States?
    Mr. Shaub. That's right because there are some Ethics 
Committee rules that apply to you.
    Ms. Ocasio-Cortez. And it's already super legal, as we have 
seen, for me to be a pretty bad guy. So it's even easier for 
the President of the United States to be one, I would assume?
    Mr. Shaub. That's right.
    Ms. Ocasio-Cortez. Thank you very much.
    Mr. Sarbanes. Mr. Roy of Texas is recognized for five 
minutes.
    Mr. Roy. Thank you, Chairman.
    Mr. Smith, I wondered if you might have any comments on the 
questioning by my colleague from New York. You seem to have a 
few notes you were writing down. Do you have anything you want 
to say after that discussion?
    Mr. Smith. Well, I would say there are a couple things, for 
example, that would not be--she asked, is there anything that 
could apply here? There are certain things that could not apply 
here. For example, the whole point of article that she held up 
that I wrote said that you cannot use your campaign funds to 
make those kinds of payments; that would be illegal personal 
use.
    Campaign funds are not dark money. They are totally 
disclosed, so they are not dark money. It's worth noting, by 
the way, that earlier it was mentioned that dark money 
constituted about $1.7 billion. I believe that figure is 
incorrect by a factor of about a 500 percent. Dark money 
constitutes about 2 to 4 percent of the total spending in U.S. 
elections and has always been involved in U.S. elections.
    So those are just a couple of points. I did kind of chuckle 
at the question, is it possible--asked of us--that these 
influences are--that this money is influencing the questioning 
here. To that, I'd say that's something you have to ask 
yourselves if you're being influenced and see what you think. 
If you are, you might question yourselves. If you're not, you 
might question this hearing.
    Mr. Roy. A couple of questions about super-PACs, as they 
are often referred to. Are Federal candidates allowed to 
coordinate directly with the super-PAC or have anything to do 
legally with its formation?
    Mr. Smith. No, they are not at the current time.
    Mr. Roy. With respect to super-PACs, is this a particularly 
partisan problem, or would you say both parties have super-PACs 
funding elections and funding candidacies?
    Mr. Smith. Both do, I believe. I'm not 100 percent sure on 
this. I believe historically they have leaned more Republican 
but in the last election cycle leaned more Democratic. I'm not 
100 percent sure of that, but it's certainly a bipartisan 
issue.
    Mr. Roy. So, if we deploy the famous ``let me google that 
for you'' and we got this to come up to say, well, a bunch of 
headlines you googled that say Democrat super-PAC spending $3 
million for Menendez in New Jersey; super-PAC money dominated 
2018 election in Colorado, and Democrats controlled in the cash 
race; Democratic super-PAC translates ads to Spanish after 
seeing election day search trends, and if we went through and 
through and through, we would see that this is not a 
particularly partisan question or problem; it's just a 
baseline. Is that right, Mr. Smith?
    Mr. Smith. I think that's right.
    Mr. Roy. And when we think about what we're dealing with 
with respect to campaign finance, are you familiar with doxing?
    Mr. Smith. In the sense of outing people online, if that's 
what you're referring, yes, generally.
    Mr. Roy. So, for example, are you familiar with a Twitter 
account called Every Trump Donor?
    Mr. Smith. No, I'm not.
    Mr. Roy. Which tweeted out one by one the names, hometowns, 
occupations, employers of people who contributed as little as 
$200 to the President's campaign, each tweet following a 
particular formula. My point being and the question for you is: 
When we talk about campaign disclosures, are we aware of the 
negative impacts that you have on forcing American citizens in 
exercising their free speech to have that information be 
disclosed? Whether that's good policy or not might be 
debatable, but are there negative consequences to that with 
respect to free speech, given you're an expert on free speech?
    Mr. Smith. There are. And there are definitely studies that 
have shown that disclosure does tend to decrease participation. 
Now, that doesn't mean, as you point out, that it's not worth 
it, but it certainly has costs. So we have to be careful in how 
broad we let that disclosure become.
    Mr. Roy. Thank you.
    Mrs. Hobert Flynn, just a quick question. Did I hear 
correctly earlier in one of your exchanges with one of my 
colleagues here that you consider proof of citizenship as one 
of the barriers to voting or one of the obstacles for people to 
be able to vote, a proof of citizenship, is that one of the 
ones that you outlined?
    Mrs. Hobert Flynn. Yes. That it appeared--it is used, you 
know, at many polling places that people just attest to that. 
To have to come up with the paperwork is a burden for many 
Americans.
    Mr. Roy. As well as you outlined photo ID, early voting 
changes, if you're restricting early voting from being longer 
to shorter and election day registration, that's the position. 
And the reason I ask is because, when we look at obstacles to 
voting, we know that the Voting Rights Act was a paramount 
piece of legislation to ensure people have access to the polls. 
We also know that the Voting Rights Act ran into constitutional 
problems in Shelby County v. Holder, for very good reason. If 
you look at what the majority wrote, the Voting Rights Act of 
1965 employed extraordinary measures to address an 
extraordinary problem, in the face of unremitting and ingenious 
defiance of citizens constitutionally protected right to vote, 
section 5 was necessary to give effect to the 15th Amendment in 
particular regions of the country. This is South Carolina v. 
Katzenbach.
    And today, this is now Justice Thomas writing in a 
concurrence: Today our Nation has changed. The conditions that 
originally justified section five no longer characterize voting 
in the covered jurisdictions.
    Mr. Smith, are you aware that, in this legislation, there 
is an attempt to bring section 5 back with respect to 
preclearance, and could you comment at all on that and what 
that might mean?
    Mr. Smith. As you are out of time, I'll just note that, 
yes, that is true. And I think that the Supreme Court's concern 
was that the formula applied from data from 1964 and simply 
needs to have updated to reflect modern realities, and this 
bill I don't believe makes any effort to do that.
    Mr. Roy. That is correct. Thank you.
    Mr. Sarbanes. Congresswoman Pressley of Massachusetts is 
recognized for five minutes.
    Ms. Pressley. Thank you very much, Mr. Chairman.
    This has been a very interesting hearing. Charges of 
radicalism, accusations of motives of partisanship, but never a 
peep or outrage about partisan gerrymandering which has 
benefited your party for decades. That is really convenient and 
rich and hypocritical.
    H.R. 1 has been described as a wish list by the Democrats. 
Well, you've got us there: a wish list for an inclusive 
expanded democracy and electorate.
    Characterizations of H.R. 1 as a power grab. You got us 
again. Guilty. We wouldn't have to grab back the power for the 
people if through policy you weren't complicit in or 
perpetuating the disenfranchisement and marginalization of the 
people and disproportionately people of color and 
disproportionately Black people.
    Representative John Lewis reminds us that if your vote 
didn't matter, they wouldn't work so hard to take it from you. 
This is the House of Representatives. We are sent here as 
Representatives of our districts and a greater democracy. And 
at the core of democracy and the root word of ``demos'' is to 
engage more voices, to engage more voices and to empower them 
in this democracy.
    I am really at a loss for words. I am embarrassed and hurt 
by the dog whistles, by the vitriol and the venom in this 
space, and the smugness. It is stunning and unconscionable.
    Disappointment and outrage about a Federal holiday for 
election day, early voting, and mail-in voting, the rights of 
formally incarcerated restored. According to the Sentencing 
Project, 6.1 million Americans have lost their right to vote 
due to felony disenfranchisement laws, laws that 
disproportionately impact communities of color.
    Ms. Flynn, the United States ranks 26th among the lowest of 
all established democracies around the world in voter turnout. 
Certainly belies characterizations of American exceptionalism. 
Could you speak to the passage of H.R. 1 and the establishment 
of a Federal voting holiday, how this would help to broaden 
turnout, particularly for voters who have historically been 
disenfranchised? Could you also speak to how many developed 
countries follow this practice, and how it has impacted their 
turnout?
    Mrs.  Hobert Flynn. Yes. I apologize. I do not have 
information--but I will share it with the committee--about 
other countries. But I will say that a Federal holiday can make 
a huge difference for many Americans who cannot afford to take 
a day off of work to get to the polls, or as we have seen, 
Common Cause and the Lawyer's Committee and many other voting 
rights groups, to election protection during the election 
season. And we saw long lines in States across the country.
    We had machines that were breaking down or switching votes. 
We had machines that did not work, and so people have long 
lines. People cannot afford--many people cannot afford to wait 
in line for three, four, five hours at a polling place. Many 
have to get back to work.
    Ms. Pressley. Thank you.
    Mrs. Hobert Flynn. So a Federal holiday would make a big 
difference.
    Ms. Pressley. Thank you very much.
    Mr. Amey, so we have spoken a great deal about lobbying 
corruption. I'd like to speak about the corruption of 
contractors. Mr. Amey, in your written testimony, you discuss 
the crisis of the rampant revolving door where ranking 
officials commonly enter cushy jobs for the very contractors 
they were charged with overseeing on behalf of taxpayers.
    Last year, your organization issued an investigative report 
that Tracey Valerio, former senior official for ICE, less than 
three months after leaving government service, she was hired by 
the GEO Group, ICE's largest single private prison and 
detention center, which brought in more than $327 million in 
the last year alone. She even served as an expert witness for 
the company in a lawsuit that alleged violations of minimum 
wage laws and other inhumane treatment of immigrant detainees.
    Mr. Amey, in your expert opinion, is it ethical for a 
senior government contracting office to go work for the very 
entity she was overseeing just months before?
    Mr. Amey. The quick answer is no. And that's--the law is 
created that has cooling-off periods, and so there's no 
cooling-off period, a one-year, a two-year, or a permanent ban. 
H.R. 1 would move a lot of those to two years, I think which 
would be beneficial. There's even disagreement in our community 
whether one year--you know, what is the appropriate time to 
kind of cool off so that your contacts aren't there?
    But this is also something that President Trump brought up. 
When he was a candidate, he talked about, I think it was Boeing 
at the time, but he went on record saying that people who give 
contracts should never be able to work for that defense 
contractor. This isn't a bipartisan--this is a bipartisan 
issue. This is something we can resolve. The laws are already 
on the books. We just need some extensions and some tweaking of 
those to improve them and allow people to cool off and not be 
able to provide a competitive advantage to their new employer 
or favor them as they're in office and they're walking out the 
door.
    Ms. Pressley. So you do believe that extending this 
cooling-off period and strengthening these prohibitions would 
protect the integrity of the process and help to rein in these 
flagrant abuses?
    Mr. Amey. One hundred percent. And one of the nice things 
with H.R. 1 is there's an extension of a cooling-off period for 
people coming into government service. Currently it exists, and 
it's one year. This will move it to 2, and I think that's 
probably a better place to be, that you shouldn't be handling 
issues that involve your former employer or clients.
    Ms. Pressley. One final question. How might these cozy 
relationships between government officials and corporate 
leaders or private contractors help to boost profits for these 
prison and detention centers?
    Mr. Amey. Well, certainly they go with a lot of information 
when they go over to the private sector, but it also allows 
them to get back into their former office and within their 
former agency and call on them. As you were just pointing out, 
access is everything in this town. And so if you can get your 
phone calls answered, if you can get emails read, if you can 
get meetings, at that point, not only with Members of Congress 
but with agency heads, that can determine who gets contracts. I 
mean, it does trickle down from the top, and we need to make 
sure that we prevent as many, like, actual and also appearances 
of conflicts of interest we can.
    Ms. Pressley. Thank you so much. I yield.
    Ms. Hill.[Presiding.] Sorry. This is my first time up here.
    I'd like to recognize Mrs. Miller from West Virginia for 
five minutes.
    Mrs. Miller. Thank you, Madam Chairman.
    To all of you, thank you so much for being here today.
    Mr. Smith, in your testimony, you discussed the language 
utilized by groups that mention either Federal candidates or 
elected officials which promotes, attacks, supports, or 
opposes, otherwise known as PASO. It is my understanding that 
H.R. 1 uses this highly subjective qualifier as a standard for 
all communications.
    With that in mind, given the broad use of PASO in H.R. 1, 
what kind of chilling effect do you believe this will have on 
free speech in our country?
    Mr. Smith. I think it will have a substantial chilling 
effect, and I think that's why the Supreme Court in a number of 
opinions dating back for almost a half a century has said that 
the standards used to regulate speech have to be clear and 
closely tied to elections, that this kind of vague standard 
does not work. For a long time, they used the standard of 
express advocacy. You had to say vote for or vote against, 
support, defeat. Later, the Court expanded that a little bit to 
anything that was susceptible of no other reasonable meaning 
than a request to vote for a candidate and, even then, only if 
it erred within 60 days of an election. So I think this kind of 
broad standard is almost certainly unconstitutional, and it's 
unconstitutional precisely because it chills so much speech 
that goes outside of efforts to elect candidates, our ability 
just to talk about issues and civic affairs.
    Mrs. Miller. Well, that pretty much the leads into my 
second question which was what impact would the passage of this 
legislation have on those groups that are not political but may 
put out policy-oriented communications?
    Mr. Smith. It would be very serious, and I've given a 
number of examples in the written testimony. I will just say 
that I should add to this, of course, that the bill includes 
personal liability for officers and directors of some of these 
organizations. So, you know, you almost have to be crazy to let 
your organization get anywhere close to this promote/support/
attack/oppose standard. And, again, what does that mean? I 
suggest, you know, again, a government union might take out an 
ad maybe in a month, right or three weeks from now saying: 
Don't let President Trump--we shouldn't have to pay because he 
wants his wall in Mexico, you know, so tell him to reopen the 
government.
    Is that an attack on President Trump? That's the kind of 
thing that folks would not know and would make people very 
hesitant to run that kind of an ad.
    Mrs. Miller. So it is a personal risk as well?
    Mr. Smith. Yes. Yes. Not only a risk, plus, it would be a 
risk, by the way, as well to the tax status of some of the 
organizations involved. Many of these organizations might have 
some type of tax status. 501(c)(3) organizations would have to 
be very careful because if they engage in speech that is now 
defined as political speech, 501(c)(3) organizations can't 
engage in political speech. They would jeopardize their tax-
exempt status. So that's another reason that these 
organizations would stay far clear of commenting on any kind of 
public issue.
    Mrs. Miller. Thank you very much. I yield back my time.
    Mr. Meadows. Would the gentlewoman yield?
    Ms. Hill. I yield to--wait. I'm sorry. Yes, I yield.
    Mr. Meadows. Okay. I thank the chairman. I thank the 
chairman.
    I want to commend, and actually, Ms. Flynn, I want to come 
to you briefly. You're a nonpartisan group. Is that correct?
    Mrs. Hobert Flynn. Yes, it is.
    Mr. Meadows. All right. Mr. Shaub, you are here 
representing CREW. Is that correct?
    Mr. Shaub. Yes.
    Mr. Meadows. You're a nonpartisan group?
    Mr. Shaub. Yes.
    Mr. Meadows. So is there anything to be learned by your 
board members and who they contribute to and--because you say 
you're nonpartisan, yet, Mr. Shaub, if I look at all your board 
and who they contribute to, I think the lone donation to a 
Republican was $250 to John McCain. But yet hundreds of 
thousands of dollars from your board members to all kinds of 
Democrat operatives and causes across the way. So is there 
anything to be drawn from your board supporting those causes to 
suggest that you're partisan or not?
    Mr. Shaub. No. No.
    Mr. Meadows. All right. So I'm confused a little bit, Mr. 
Shaub. If we can't draw that conclusion, then how in the world 
can we draw conclusions about other related entities in the 
government based on their association or lack thereof of other 
individuals?
    Mr. Shaub. Entities in the government?
    Mr. Meadows. Yes. I mean, you're making all kinds of 
accusations that--with the chairwoman's permission, let me 
finish the one question very quickly.
    So, in that, your board is inherently left-leaning based on 
their political contributions, and you're saying that that has 
no input or direction on what your organization stands for. Is 
that your sworn testimony here today?
    Mr. Shaub. It's a nonpartisan group, yes.
    Mr. Meadows. All right. I yield back.
    Ms. Hill. Mr. Khanna from California is recognized for five 
minutes.
    Mr. Khanna. Thank you, Madam Chair.
    I want to thank John Sarbanes and Chairman Cummings for 
their leadership.
    Mr. Smith, you're a student of history, I can tell, so I 
want to read you a quote and see if you can guess which 
President said this: It is well to provide that corporations 
shall not contribute to Presidential or national campaigns and, 
furthermore, to provide the publication of both contributions 
and expenditures. However, no such law would hamper an 
unscrupulous man of unlimited means from buying his way into 
office. There is a very radical measure which would, I believe, 
work to substantial improvement in our system of conducting a 
campaign, although I am well aware that it will take some time 
for people. So to familiarize themselves with such a proposal, 
the need for collecting large campaign funds would vanish if 
Congress provided an appropriation for the proper and 
legitimate expenses of campaigns.
    ``Campaigns'' was a paraphrase, but that's the point. Do 
you know who said that?
    Mr. Smith. I believe that's Teddy Roosevelt.
    Mr. Khanna. It is Teddy Roosevelt. Do you disagree with 
Teddy Roosevelt?
    Mr. Smith. Yes, I do.
    Mr. Khanna. Do you disagree with the establishment of the 
public funding for Presidential campaigns?
    Mr. Smith. I do think that has been ineffective and not a 
good idea. I also disagree with Ben Tillman who sponsored the 
original Tillman Act for T.R.
    Mr. Khanna. Did President Reagan participate under the 
Presidential funding campaign?
    Mr. Smith. Yes, he did.
    Mr. Khanna. Would you say that it's fair to say there were 
some strong conservatives elected under the Presidential 
funding campaign?
    Mr. Smith. Yes, there were.
    Mr. Khanna. I was struck by your Statement that, quote, the 
subsidy will most likely drive donors away from moderating 
forces exerted by parties.
    Is it your view--and I mean, it's a legitimate view, that 
there's a debate in democracy. My view is the American people 
are really smart, great, and I trust the popular will. Is it 
your view that the donors, which are 5 percent, sort of have an 
elite sort of a Republican function to moderate the will of the 
American public?
    Mr. Smith. No. My view is the public is very smart too, 
which is why I trust them at the ballot box to make good 
decisions.
    Mr. Khanna. But why do you say--you don't say the voters 
will have a moderating force. You're saying that the donors are 
going to have this moderating force. I just want to see what 
particular attributes do you give these donors? I mean, look, 
Our Founders, there were some Founders who believe that there 
should elites who put a check on the popular will. And I just, 
I mean, it would an honest view if you said people who give 
2,700 or 5,400 have--that in your view, they're smarter or 
better and that they need to have a check on Americans. And my 
view is that Americans are very smart, and I trust them more.
    Mr. Smith. It's not really necessary for you to put words 
in my mouth, Mr. Khanna. I did not say those things.
    But what I do think is the case is that there's empirical 
evidence that shows that small donors tend to be more polarized 
than large donors, and that's just a question of empirical 
evidence. Now, if you want to ignore the facts, you're free to 
do that. That doesn't mean that donors or the public are 
stupid. Voters are very smart, and again, I trust them at the 
ballot box to make the right decisions.
    Mr. Khanna. But why do you think that we need large donors 
to have an influence? I guess that's my question. I mean, 
you're basically saying they're 5 percent of the country we can 
agree that have these large donors. You're saying they have a 
force for good in our democracy.
    Mr. Smith. I don't think that we need them to play that 
role. I think that, on the other hand, the idea that we're 
going to benefit simply by trying to make sure that we do a 6-
to-1 match for small donors is not going to have the results 
that people think it will have.
    Mr. Khanna. I'm not talking about that. I'm just trying to 
understand your view because I think this is what drives a lot 
of the view. It's that there are fundamentally people who 
believe that these 5 percent of donors have some influence on 
our democracy that you say is less polarizing. I mean, what 
does that mean? Why is it that we can't----
    Mr. Smith. My view is that it is generally a matter of bad 
policy and tremendous risk and a violation of the First 
Amendment to try to limit people's ability to speak out, to 
contribute to candidates, to join groups that engage in the 
political process.
    Mr. Khanna. But you think that Theodore Roosevelt was 
violating the First Amendment as well?
    Mr. Smith. I think he was incorrect, yes.
    Mr. Khanna. But just on this modernization. I mean, forget 
the First Amendment argument. I want to understand the 
polarization argument.
    Mr. Smith. Uh-huh.
    Mr. Khanna. Why is that you think 95 percent of the country 
needs to be moderated? I mean, what is it----
    Mr. Smith. I don't think that. What I think and what the 
empirical evidence shows is that is small donors, which is a 
small percentage of the total country, tend to be more 
polarizing in their views and in their donations than are 
others. Ask----
    Mr. Khanna. No, but if you have public financing, you 
wouldn't have largest donors. Then is your only concern the 
First Amendment concern, or do you think that these large 
donors are playing some positive influence in our democracy?
    Mr. Smith. No, I don't think they're playing a particularly 
positive influence. In some cases, they are, by the way, and in 
some cases, they're not. I don't think as a group they are 
uniformly playing a positive role or a negative, just I don't 
think small donors are uniformly playing a positive role or a 
negative role, and I don't think every member of this committee 
is uniformly positive or negative. We're individuals. We play 
individual roles.
    Mr. Khanna. Thank you.
    Ms. Hill. I recognize Mr. Jordan from Ohio for five 
minutes.
    Mr. Jordan. Thank you, Madam Chair.
    Mr. Shaub, how long were you at OGE?
    Mr. Shaub. A total of just short of 14 years.
    Mr. Jordan. And how long were you the chairman?
    Mr. Shaub. Well, I was never----
    Mr. Jordan. Director. Excuse me.
    Mr. Shaub. Director? Four and a half, I think.
    Mr. Jordan. Four and a half years as director. And when did 
that end?
    Mr. Shaub. July 2017. I don't remember the exact date.
    Mr. Jordan. So the end of the Trump administration, you 
were still functioning as Director for six months, seven 
months. Okay. Tell me exactly how things work at OGE. You 
provide counsel and advice to folks in the executive branch of 
the government on ethical concerns they may have. Do they come 
to you, or do you go to them? How does it typically work?
    Mr. Shaub. It typically works--you know, you're talking 
about the prevention mechanism. It typically works that the 
official initiates the interaction and comes seeking guidance 
for something that they want to do, or to find out if they, you 
know, need to do something. The only other way where it comes 
involuntary is through the financial disclosure system where 
they're required to file these reports. OGE reviews them and 
often works back and forth with----
    Mr. Jordan. How did it work with the President of the 
United States? Did his lawyers come to you, or did you look 
into his financial disclosures or both?
    Mr. Shaub. Yes. They came to us. We had been working with 
them since--well, I'm not sure when he first became a 
candidate. It was----
    Mr. Jordan. His lawyers reached out to you at some point 
while he was a candidate and then continued to reach out to you 
while he was President-elect and I assume while he was 
President.
    Mr. Shaub. That's right.
    Mr. Jordan. All three stages.
    Mr. Shaub. That's right.
    Mr. Jordan. And on November 30, 2016, while it was then 
President-elect Trump, you did a series of tweets about your 
interactions with the President's legal team. Is that accurate?
    Mr. Shaub. We----
    Mr. Jordan. I've got them right here. I'll read them if you 
want.
    Mr. Shaub. No, no. I'm trying--it's the characterization of 
about their what?
    Mr. Jordan. Their interactions with OGE.
    Mr. Shaub. And I believe they were about divestiture and 
about our encouraging them to divest.
    Mr. Jordan. Did you send them out on your official account?
    Mr. Shaub. My official, no. We sent them out on the Office 
of Government Ethics official account.
    Mr. Jordan. That's what I mean, right.
    Mr. Shaub. Yes.
    Mr. Jordan. You tweeted these out?
    Mr. Shaub. That's right.
    Mr. Jordan. Had you ever tweeted out anything dealing with 
anyone else who had sought your counsel and advice?
    Mr. Shaub. We'd only had the account for about three years, 
and I don't think we----
    Mr. Jordan. It's a yes or no question. So the only guy you 
ever tweeted about who you had been dealing was the President-
elect of the United States of America, right?
    Mr. Shaub. Yes.
    Mr. Jordan. You said things like this: We told your counsel 
we would sing your praises if you divested. We meant it.
    You're tweeting out for the whole world private 
conversations you've had with someone who sought your advice, 
their legal counsel. You said: As we discussed with your 
counsel, divestiture is a way to resolve these conflicts.
    Then you did this one: OGE applauds the total, in 
parentheses, divestiture decision--mocking the President-elect.
    Mr. Shaub. No. We were not mocking.
    Mr. Jordan. Then why did you put it in parentheses?
    Mr. Shaub. Because it was, I think, a quote.
    Mr. Jordan. You said you had never done this before, never 
tweeted out about anyone else in the executive branch who 
sought your advice and counsel on how they can deal with 
ethical issues. This was the only individual you ever tweeted 
out about.
    Mr. Shaub. I think that's a mischaracterization to describe 
it as confidential advice. OGE's position that a President 
should----
    Mr. Jordan. I didn't saying anything about confidential. 
All I said is this the only guy you ever tweeted about?
    Mr. Shaub. All right. I thought I heard you said 
confidential at one point.
    Mr. Jordan. I did not. And you said you did tweet about the 
President-elect, no one else.
    Mr. Shaub. That's right.
    Mr. Jordan. Do you find that unusual?
    Mr. Shaub. Do I find it--I find everything about the past 
two and a half years unusual.
    Mr. Jordan. No, no, no. I'm not saying that. Do you find it 
unusual that--what I'm saying is--well, let's say it this way: 
Do you think it was a professional decision that the guy who is 
the head of the Office of Government Ethics, when you're going 
to give information to the public only about one individual, 
and you've never done it in your 14 years at OGE and four years 
as Director?
    Mr. Shaub. Well again, you said disclosed information. I 
didn't share information. This was from 1983, was when OGE----
    Mr. Jordan. Well, wait. What were you trying to convey? 
What were you trying to convey in these tweets?
    Mr. Shaub. That the President should divest as OGE had been 
telling him.
    Mr. Jordan. Couldn't you tell his lawyers?
    Mr. Shaub. We did tell his lawyers.
    Mr. Jordan. Well, then why did you tweet about it?
    Mr. Shaub. We had reached a dead end, and I wasn't 
convinced that our communications were reaching him.
    Mr. Jordan. You're talking to his lawyers. His lawyers 
reached out to you first. You're communicating the advice that 
you think is what they need to do, and yet you go tweet about 
it?
    Mr. Shaub. We were trying to nudge him toward with 
divestiture. He had just issued a Statement that he was going 
to achieve total--you have the phrase there. I don't have the 
phrase, and I don't want to say it wrong.
    Mr. Jordan. OGE applauds the total divestiture decision. 
Bravo.
    Mr. Shaub. He said something like completely separate or 
completely resolve conflicts of interest. I don't want to claim 
I remember the quote exactly, and so what we were trying to 
do--we had two choices: interpret that as unclear or give him--
I mean, you know, doubt him or give him the benefit of the 
doubt that what he said was true. We made a decision to choose 
to take him at his exact literal words because only 
divestiture----
    Mr. Jordan. You made a decision to tweet out conversations 
you had with the President-elect's counsel when they were 
seeking advice and guidance from you, and you had never, ever 
done that before.
    Ms. Hill. Thank you, Mr. Jordan.
    I recognize myself for five minutes, and I'd like to yield 
two minutes to Ms. Tlaib from Michigan.
    Ms. Tlaib. Thank you, Chairwoman Hill.
    It's wonderful seeing you up there. I really appreciate 
this. You know, at this very moment I'm thinking about my 
teenage son who would be saying--we're talking about tweets 
right now, and he would say, ``Seriously?''
    But I just really want to talk about something incredibly 
serious which is the law the land: the United States 
Constitution. We all have a duty do uphold it. We're here to 
serve the American people, not this President. We serve them 
before anyone. And I just know since the Ethics in Government 
Act of 1978 was passed, Presidents of both parties have 
established blind trusts or limited their holdings to the U.S. 
Treasuries, diversified mutual funds, all the assets, because 
of conflict of interest. And you just talked about divestiture. 
This is the Emolument Clause. This is an incredibly important 
clause that really protects the American people. No matter who 
is there, Republican, Democrat, it doesn't matter because it's 
really important to take that kind of influence out because 
everyone knows being President is a temporary gig because what 
happens afterwards, right?
    You have someone that is still running The Trump 
Organization, many of them in the Cabinet right now and serving 
out of the White House. I am really asking for all of you to, 
please, even if it's just for a few seconds, to talk about the 
Emolument Clause, why it's there, and why it's important to 
really reiterate this because even beyond H.R. 1, this is 
current law now, and we're not upholding that law. We're not 
taking our oath that we just took five weeks ago seriously when 
we say this, and I'll tell you: I don't care if it was--is a 
Democrat thing or--I don't care. This is important to me that 
someone is making decisions based on the American people and 
not the best interests of a profit in mind or best interests of 
their company which they're going to go back after leaving that 
White House, go back into that. It is so critically important 
that we uphold the Emolument Clause. I would really like for 
you to speak about that.
    Mr. Shaub. Well, you know, the Founders of our Republic 
created a foundational document, the United States 
Constitution, and we've heard a lot today about the importance 
of that Constitution. The only conflict of interest provision 
that they felt they needed to include in that foundational 
document were the two Emoluments Clauses. And, you know, 
frankly, I wish they had put a whole lot more in, but those are 
the two they gave us, and those are the two that they felt were 
preeminent and needed to be in there.
    Ms. Hill. One brief second.
    Mr. Mehrbani. Well, I was just going to say that I think 
the Emoluments Clause stands for the principle against self-
dealing and using a public position to benefit yourself 
individually. I think you can draw connections from the Ethics 
in Government Act and other laws that have been passed on a 
bipartisan basis directly to the Emoluments Clause and other 
constitutional provisions, so it's something that we think 
about often.
    Ms. Hill. Reclaiming my time. I just want to finish this by 
saying that I ran for Congress, and I know many of my 
colleagues did, because I believed that our political system 
was broken and in large part due to a complete lack of trust by 
our citizens in our government and in our democracy and that 
restoring that trust has to be our top priority. So I have a 
question for all of you, and I want to make sure that Mr. Smith 
answers this. Do you believe that increased transparency would 
help restore that trust?
    Mr. Smith. If you want to start with me, I would not agree 
with that as a blanket assertion.
    Ms. Hill. You don't believe that transparency----
    Mr. Smith. I think there are cases where it does, and there 
are cases where it does not.
    Ms. Hill. Can you give me one example where transparency 
would not restore trust in democracy?
    Mr. Smith. Well, for example, I think sometimes debates of 
this very organization are best held in private where you can 
stake out positions, give and take without having every 
absolutely conversation, for example, made public. I think, for 
example, that if people contribute small amounts to grassroots 
organizations, no, the public doesn't need to know that, and 
the harm outweighs the benefits, the threats to people, the 
fact that they often withdraw from political participation. So 
it's a case-by-case matter.
    Ms. Hill. I'm not suggesting in any way that people need to 
hear every conversation. I'm saying the general mechanisms of 
transparency that we're asking for here in this bill is----
    Mr. Smith. Some of the transparency here is bad. I've 
outlined in that in my testimony.
    Ms. Hill. Okay. I'll move on to the next.
    Do you believe that transparency helps restore faith in 
democracy?
    Mr. Shaub. I think it's probably the most important tool we 
have to assure the American people that their leaders are 
acting in their interests.
    Ms. Hill. Great. Do you all agree?
    Mr. Mehrbani. Yes. Sunlight is a good prophylactic.
    Mrs. Hobert Flynn. Yes. And both in ethics measures and 
campaign finance reform measures as well.
    Ms. Hill. Mr. Smith, do you believe at least that making it 
easier to vote would restore trust in our democracy?
    Mr. Smith. I think generally you don't want obstacles 
placed in the way of voting, but I don't think, again, 
everything making it easier to vote. For example, I would not 
favor having early voting begin a year before the election. So 
some things, yes, and some things, no.
    Ms. Hill. What about making it national holiday to vote?
    Mr. Smith. Making it a national holiday? Let's put it this 
way. I don't think that's a real problem or that it has been 
shown to increase turnout or make it a whole lot easier to vote 
when it has been tried.
    Ms. Hill. Well, I would say that for working class people 
who don't get paid time off, it would make it harder to try.
    Mr. Smith. It may, but I don't think the empirical data 
shows that it has an affect there.
    Ms. Hill. Okay. Well, I would like to say that the former 
General Counsel and Acting Director of the Office of Government 
Ethics Don Fox sent a letter to the committee in support of 
H.R. 1. Public Citizen, the Declaration for American Democracy 
Coalition, and Indivisible have also written Statements in 
support, all of which I'm adding to the record.
    [The information is provided in the Apendix section.]
    Mr. Amey. Madam Chair.
    Ms. Hill. Mr. Amey, I recognize you.
    Mr. Amey. I just want to go back to the transparency. 
Obviously, I'm a big yes. And I just want to say it's not only 
for the American people, but it's Congress. Earlier today we 
heard I think it was Congresswoman Maloney mention that 
documents haven't been turned over to Congress. We found an 
ethics waiver that goes back to 2003, and it was an ethics 
waiver for someone over at HHS, at CMS, that was working on the 
Medicare or Medicaid part B portion of the healthcare bill. 
There was a gentleman there that received a waiver, and it was 
a general waiver, and that's why putting waivers out and making 
them publicly available are important. But this Congress voted 
on that bill and supported it, and that gentleman refused to 
let a member of the staff turn over information to Members of 
Congress, and guess what? Within days, he went and worked for a 
lobbying shop and went to work for a company or a firm that 
represented drug companies. And so I just--it is important for 
the American public, but it is also important for the Senate 
and the House of Representatives to also have faith in the 
government and what information they're getting from government 
employees.
    Ms. Hill. Thank you.
    Mr. Meadows. Madam Chair, I ask unanimous consent that the 
record reflects that the President of the United States has 
consistently throughout his tenure donated his Presidential 
salary back to Federal agencies, as recent as this last 
quarter. And since much of this discussion is about his private 
benefit by his position, I want the record to reflect that he 
actually donates back his salary to Federal agencies.
    I ask unanimous consent.
    Ms. Hill. If there's no objection, so ordered.
    Ms. Hill. I would like to close by thanking all of our 
witnesses again for participating today. It was helpful to hear 
the expertise of our witnesses and why Congress should take 
action on H.R. 1. H.R. 1 is a comprehensive package of reforms 
that we desperately need. And speaking as a recent citizen and 
not a Member of Congress, I strongly stand in support of this 
and, in fact, was running on these issues long before I knew 
that this was coming in the form of a package, and I know that 
that's the case for many of my colleagues as well.
    The reforms in the jurisdiction of this committee would 
make the executive branch more accountable and transparent. I 
urge all members of the committee to work with us in moving 
this legislation forward.
    With that, the committee stands adjourned.
    [Whereupon, at 1:30 p.m., the committee was adjourned.]
    
    
                              APPENDIX
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
</pre></body></html>
